<html>
<title> - HHS ACTIONS TO IDENTIFY AND ADDRESS HEALTH EFFECTS OF THE BP OIL SPILL</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                  HHS ACTIONS TO IDENTIFY AND ADDRESS 
                   HEALTH EFFECTS OF THE BP OIL SPILL
=======================================================================



                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON HEALTH

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 16, 2010

                               __________

                           Serial No. 111-135


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
77-912                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                    COMMITTEE ON ENERGY AND COMMERCE

                 HENRY A. WAXMAN, California, Chairman
JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JANICE D. SCHAKOWSKY, Illinois       SUE WILKINS MYRICK, North Carolina
CHARLES A. GONZALEZ, Texas           JOHN SULLIVAN, Oklahoma
JAY INSLEE, Washington               TIM MURPHY, Pennsylvania
TAMMY BALDWIN, Wisconsin             MICHAEL C. BURGESS, Texas
MIKE ROSS, Arkansas                  MARSHA BLACKBURN, Tennessee
ANTHONY D. WEINER, New York          PHIL GINGREY, Georgia
JIM MATHESON, Utah                   STEVE SCALISE, Louisiana
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE L. BRALEY, Iowa
PETER WELCH, Vermont
                         Subcommittee on Health

                FRANK PALLONE, Jr., New Jersey, Chairman
JOHN D. DINGELL, Michigan            NATHAN DEAL, Georgia,
BART GORDON, Tennessee                   Ranking Member
ANNA G. ESHOO, California            RALPH M. HALL, Texas
ELIOT L. ENGEL, New York             BARBARA CUBIN, Wyoming
GENE GREEN, Texas                    JOHN B. SHADEGG, Arizona
DIANA DeGETTE, Colorado              STEVE BUYER, Indiana
LOIS CAPPS, California               JOSEPH R. PITTS, Pennsylvania
JANICE D. SCHAKOWSKY, Illinois       MARY BONO MACK, California
TAMMY BALDWIN, Wisconsin             MIKE FERGUSON, New Jersey
MIKE ROSS, Arkansas                  MIKE ROGERS, Michigan
ANTHONY D. WEINER, New York          SUE WILKINS MYRICK, North Carolina
JIM MATHESON, Utah                   JOHN SULLIVAN, Oklahoma
JANE HARMAN, California              TIM MURPHY, Pennsylvania
CHARLES A. GONZALEZ, Texas           MICHAEL C. BURGESS, Texas
JOHN BARROW, Georgia
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
BETTY SUTTON, Ohio
BRUCE L. BRALEY, Iowa

                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     1
    Prepared statement...........................................     3
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     4
    Prepared statement...........................................     5
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, prepared statement..............................    10
Hon. Joseph R. Pitts, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................    12
Hon. Diana DeGette, a Representative in Congress from the State 
  of Colorado, opening statement.................................    12
Hon. Tim Murphy, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................    14
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................    15
    Prepared statement...........................................    16
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................    20
Hon. Donna M. Christensen, a Representative in Congress from the 
  Virgin Islands, opening statement..............................    21
Hon. John P. Sarbanes, a Representative in Congress from the 
  State of Maryland, opening statement...........................    21
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................    22
Hon. Lois Capps, a Representative in Congress from the State of 
  California, opening statement..................................    23
Hon. Kathy Castor, a Representative in Congress from the State of 
  Florida, opening statement.....................................    24
Hon. Mike Ross, a Representative in Congress from the State of 
  Arkansas, opening statement....................................    25
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................    26
Hon. Betty Sutton, a Representative in Congress from the State of 
  Ohio, opening statement........................................    27
Hon. Bruce L. Braley, a Representative in Congress from the State 
  of Iowa, opening statement.....................................    27
Hon. Phil Gingrey, a Representative in Congress from the State of 
  Georgia, prepared statement....................................    97
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, prepared statement......................................    99

                               Witnesses

Lisa Kaplowitz, M.D., M.S.H.A., Deputy Assistant Secretary for 
  Policy, Office of the Assistant Secretary for Preparedness and 
  Response, U.S. Department of Health and Human Services.........    29
    Prepared statement...........................................    32
    Answers to submitted questions...............................   103
John Howard, M.D., M.P.H., J.D., LL.M., Director, National 
  Institute of Occupational Safety and Health, Centers for 
  Disease Control and Prevention.................................    44
    Prepared statement...........................................    46
    Answers to submitted questions...............................   109
Aubrey Miller, M.D., M.P.H., Senior Medical Advisor, National 
  Institute of Environmental Health Sciences, National Institutes 
  of Health......................................................    61
    Prepared statement...........................................    63
    Answers to submitted questions...............................   118
Michael Taylor, J.D., Deputy Commissioner for Foods, U.S. Food 
  and Drug Administration........................................    68
    Prepared statement...........................................    70
    Answers to submitted questions...............................   125


 HHS ACTIONS TO IDENTIFY AND ADDRESS HEALTH EFFECTS OF THE BP OIL SPILL

                              ----------                              


                        WEDNESDAY, JUNE 16, 2010

                  House of Representatives,
                            Subcommittee on Health,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:05 p.m., in 
Room 2123 of the Rayburn House Office Building, Hon. Frank 
Pallone Jr. [chairman of the subcommittee] presiding.
    Members present: Representatives Pallone, Dingell, Eshoo, 
Green, DeGette, Capps, Schakowsky, Ross, Barrow, Christensen, 
Castor, Sarbanes, Space, Sutton, Braley, Waxman (ex officio), 
Markey, Shimkus, Whitfield, Pitts, Murphy of Pennsylvania, 
Burgess, Blackburn, Gingrey, and Barton (ex officio).
    Staff present: Ruth Katz, Chief Public Health Counsel; 
Naomi Seiler, Counsel; Katie Campbell, Professional Staff 
Member; Allison Corr, Special Assistant; Eric Flamm, FDA 
Detailee; Camille Sealy, Public Health Analyst; Andrew Bindman, 
Fellow; Tim Westmoreland, Consulting Counsel; Melissa Cheatham, 
Professional Staff Member; Karen Lightfoot, Communications 
Director, Senior Policy Advisor; Elizabeth Letter, Special 
Assistant; Jen Berenholz, Deputy Clerk; Mitchell Smiley, 
Special Assistant; Ronald Allen, Staff Assistant; Clay Alspach, 
Counsel, Health; and Ryan Long, Chief Counsel, Health.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Call the meeting of the House subcommittee to 
order, and today we are having a hearing on HHS's or the 
Department of Health and Human Services actions to identify and 
address the health effects of the BP oil spill, and I will 
recognize myself initially for an opening statement.
    The purpose of the hearing is to hear basically from the 
Department about the critical actions it is taking to identify 
and address the health effects related to the Deepwater Horizon 
spill. As we all know, that tragedy occurred on April 20. It 
has been devastating for the people living in the Coastal 
States and has captured the concern and sympathy of everyone 
across the Nation.
    There is no question that we have a human health problem. 
Concerns associated with both short-term and long-term exposure 
to oil. Health experts have warned of health complications such 
as severe skin irritation, nausea, fatigue, headaches, throat 
and eye irritation, not to mention the significant depression 
and anxiety which often accompanies this type of crisis.
    Studies of people exposed to the Prestige Oil Spill off the 
coast of Spain in 2002, show that they suffered from 
respiratory complications several years after the exposure, 
breathing in volatile organic compounds, including benzene, can 
cause acute toxicity and could potentially result in serious, 
long-term health effects like cancer, neurological, and 
reproductive harm.
    And we also have to ensure rigorous monitoring of 
dispersants being used to be sure that they have no adverse 
effects on human health for those workers and volunteers on the 
front lines of the cleanup.
    Under the direction of the National Incident Commander 
Admiral Thad Allen, and in coordination with the other key 
federal, state, and local agencies, HHS has worked swiftly to 
identify and disseminate resources on the ground level.
    Today we will hear about the work they are doing on health 
surveillance, worker training, food safety, and epidemiological 
studies from the Assistant Secretary for Preparedness and 
Response, Centers for Disease Control and Prevention, Food and 
Drug Administration, and the National Institute of 
Environmental Health Sciences. This discussion should give us a 
stronger sense of the challenges these agencies are facing, the 
success they have had so far, and how we can expect HHS to 
further engage as new information becomes available.
    I think the crisis requires, as they say, all decks or all 
hands on deck, and swift information sharing to protect the 
workers and the community members living near the coastal 
waters. And I should add that no member of our full Committee 
of Energy and Commerce has been more committed to this effort 
than the gentleman from Louisiana, Mr. Melancon, and we have 
appreciated him keeping us informed of the local perspective.
    Finally, I want to note that I am pleased that Secretary 
Sebelius has contracted a public meeting with the Institute of 
Medicine in New Orleans next week to convene an independent 
panel of scientific experts on human health exposure. The 
information we will glean from that meeting will undoubtedly 
provide even more expertise to help better execute the recovery 
effort.
    [The prepared statement of Mr. Pallone follows:]
    [GRAPHIC] [TIFF OMITTED] 77912A.001
    
    Mr. Pallone. And now I would recognize Mr. Shimkus, who 
just mentioned that we are here 2 days in a row. I don't know 
why that is true, but I am not objecting to it.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Thank you, Mr. Chairman. Well, that is good 
because I have in the audience my legislative assistant's 
family, Mr. Sarley there up front. They can't really figure out 
what he does for a job, so they decided to come to a hearing to 
figure that out, and I don't know once they are done whether 
they will walk away thinking he really has a job, but we 
appreciate you all being here.
    I am not going to pick on the healthcare law today, 
Chairman. We are just going to move on this hearing and some of 
the important things that we need to address. I would also say 
that we are fortunate in this committee to have two Louisianans 
and our own Steve Scalise has also been very involved and 
engaged on this bill and its effect for jobs, the economy, 
health, and all the things that we have dealt with. So shout 
out to both those guys.
    Thank you for this hearing. I would like to welcome our 
witnesses and look forward to your testimony. We all know about 
the event on April 20, the loss of lives. We had the hearing 
yesterday on the--with the executives of massive spill and now, 
you know, we are focused on capping, recovery, payment, and but 
you are to talk about long-term effects or what they would be 
and what we know and what we don't know and how do we get good 
information. So that is the importance of this hearing.
    I also am very happy that we have the FDA here today 
because, of course, one of the things we have worked with is on 
food safety, and we are going to have to watch this closely. We 
know it is already affecting the livelihood of the folks who 
use that as their livelihood, and there will be concern, and so 
where concern is merited and we want to have a safe food 
supply, we need to protect the consumers. Where there may not 
be and we can let these people return in certain areas to their 
livelihood, we want to do that. So we always focus or I always 
focus on our using real science, you know, and trying to keep 
away from the emotionalism that occurs in an event so that we 
can do our due diligence and in that way protect public health 
but also allow people to do the job that they have done for 
generations in some areas.
    So appreciate you being . Appreciate all the testimony. I 
look forward to it, and I yield back the balance of my time.
    [The prepared statement of Mr. Shimkus follows:]

    [GRAPHIC] [TIFF OMITTED] 77912A.002
    
    [GRAPHIC] [TIFF OMITTED] 77912A.003
    
    [GRAPHIC] [TIFF OMITTED] 77912A.004
    
    [GRAPHIC] [TIFF OMITTED] 77912A.005
    
    Mr. Pallone. Thank you, Mr. Shimkus.
    Next is the gentlewoman From California, Ms. Eshoo.
    Ms. Eshoo. Mr. Chairman, thank you for holding this 
important hearing, and welcome to the witnesses. I am going to 
waive reading my spectacular opening statement and save my time 
for questions. Thank you.
    [The prepared statement of Ms. Eshoo follows:]
    [GRAPHIC] [TIFF OMITTED] 77912A.006
    
    [GRAPHIC] [TIFF OMITTED] 77912A.007
    
    Mr. Pallone. Thank you, and all opening statements can be 
submitted for the record.
    Next is the gentleman from Pennsylvania, Mr. Pitts.

OPENING STATEMENT OF HON. JOSEPH R. PITTS, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Pitts. Thank you, Mr. Chairman. I would like to thank 
the Administration for making available to us witnesses from 
FDA, from NIOSH, CDC, from the National Institute of 
Environmental Health Services, NIH, and from ASPR.
    What happened on April 20 at--on the Deepwater Horizon, the 
resulting oil spill is a tragedy, and our thoughts and prayers 
are with the families of loved ones, the 11 people who died on 
the rig that day. Lives and livelihoods were destroyed along 
with ecosystems, although the environment is not the focus of 
this particular subcommittee.
    I am struck by just how little we know about the long-term 
and even short-term effects of the oil spill on human health. 
While there have been oil spills before, none of them match the 
size and scope of this spill, and--or the particular conditions 
in which it occurred. We have people coming into contact with 
the oil, with dispersants, with other chemicals directly such 
as the responders involved here as they are trying to stop the 
flow of oil and clean up the water and the shorelines.
    Others are facing psychological trauma as their 
livelihoods, fishing and tourism and numerous others have been 
severely injured or destroyed, and it is possible that if we 
are not careful contaminated seafood could sicken or kill 
people who live hundreds or even thousands of miles away from 
that Gulf.
    This is a massive disaster, and the agencies in front of us 
today are all part of a massive federal response. I look 
forward to hearing from our witnesses, and I thank you and 
yield back.
    Mr. Pallone. Thank you, Mr. Pitts.
    The gentlewoman from Colorado, Ms. DeGette, and thank you 
for chairing the hearing yesterday.

 OPENING STATEMENT OF HON. DIANA DEGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. DeGette. Thank you, Mr. Chairman. It was an important 
hearing, as is this hearing.
    As President Obama said in his address to the Nation last 
night, this marks the greatest environmental disaster America 
has ever known. I am afraid it also has the potential to become 
one of the worst public health disasters America has ever known 
if we are not careful.
    It has been almost 9 years now since the September 11 
attacks on the World Trade Center, and we are still seeing 
repercussions in the form of health effects on first responders 
and residents who were exposed in the aftermath. The only group 
for which we have baseline health measures is the firefighters, 
and we are still, 9 years later, working to cobble together 
data on impacted populations.
    We need to learn from our mistakes. We need to establish a 
registry of workers, volunteers, and residents, capture their 
baseline health status, and follow that and their offspring 
over the long term. The gaps in the research in human health 
effects of oil spills and the use of dispersants are 
unconscionable.
    I understand that such gaps exist because there has never 
been a need for such data, but that is not an excuse for not 
taking every step possible now to ensure that we collect and 
monitor relevant data. We also need to make sure of making 
assumptions, that we don't make assumptions without evidence to 
back them up.
    For example, there is a big assumption that because oil on 
the surface is dangerous and likely to wash up on shore, it is 
better to use dispersants to push the oil below the water 
surface. But we do not know what the impact on marine life will 
be or whether the combination of oil and dispersants is more 
toxic than either one alone.
    And in addition, we need to ensure that the National 
Institutes of Health has the resources necessary to quickly 
ramp us research into the health effects of these oil and 
dispersants.
    Similarly, we need to ensure that the Food and Drug 
Administration and the Centers for Disease Control and 
Prevention have the resources they need to move forward with 
monitoring the contamination of seafood, as well as for 
implementing surveillance system and long-term monitoring of 
the health effects of both workers and residents.
    I was aghast to learn that although there is a rostering 
system in place to capture information about workers who have, 
may have been exposed to oil and dispersants, we have nothing 
in place to monitor unofficial volunteers or local residents.
    And, Mr. Chairman, when the Oversight Investigations 
Committee was in the Gulf last week, we were horrified to hear 
from residents that while there is protective equipment on 
these boats, many of them are being told by BP and its 
subcontractors not to use the protective equipment for other 
reasons.
    If there is one thing we should have learned from September 
11 is that we need to have worker protections and health 
protections for everybody involved in this cleanup, and we also 
need to figure out what is happening to the residents and 
everybody else down there. Otherwise, we are going--as you 
said, Mr. Chairman, we are going to be seeing health effects 
for generations to come.
    Mr. Pallone. Thank you. You know, if I could just--if you 
could just--well, I guess your time is out, but I just wanted 
to say I remember vividly after 9/11 how, you know, the BP 
Administration then, who is my former governor, you know, made 
all these statements about how everything was so great and, you 
know, there wasn't a problem for the air pollution, and then we 
got all the devastating impact later.
    So you have to be very careful about, you know, what 
representations we make as agency or elected officials when it 
comes to health impacts.
    Next I would recognize the gentleman from Pennsylvania, Mr. 
Murphy.

   OPENING STATEMENT OF HON. TIM MURPHY, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Murphy of Pennsylvania. Thank you, Mr. Chairman.
    Exhibit A. Picture of a BP gas station. Some of you may 
have seen this in the media. I love the sign that they posted 
next to the tank. It says, ``Warning. Do not leave pumps 
unattended. You are responsible for spills.''
    And so we are here today dealing with the same thing today 
on health effects. We have seen a lot of pictures of animals 
tragically affected by this catastrophic, economic disaster, 
but let us not forget the human element.
    This committee recently passed legislation to provide 
healthcare monitoring for first responders as the Chairman just 
mentioned from a national tragedy of a different kind, the 9/11 
terrorist attack. Now we are dealing with a different sort and 
one that we have to make sure that we are going to track and 
monitor for a long time.
    We have several things. One, the direct effects of the oil 
on residents, the indirect effects that also may come from food 
from the region, and other products that may have been in the 
region and contaminated by the oil.
    Two, the effects of chemical dispersants, the 30,000 plus 
workers and volunteers, and now the President has ordered 
17,000 soldiers into the area, who themselves may face 
increased risks because of their exposure to chemicals 
involved, including the oil.
    It is essential that this committee take a number of 
actions such as calling upon the Department of Health and Human 
Services to immediately establish some studies and monitoring 
of those involved exposed to these chemicals.
    Two, the Department of Defense also needs to take account 
of initial evaluations and monitoring of any soldier who is 
down there.
    Three, I believe we should be pushing for NIH to 
immediately move forward on establishing some longitudinal 
studies and to monitor those really over the next couple of 
decades, and of course, the Department of Agriculture is going 
to need to also monitor this as well.
    We do need baseline medical exams for anybody going to this 
region, and we need to establish those immediately. We need to 
get those on electronic medical records and track this. So much 
of what people are being exposed to we simply do not know the 
medical effects. We also do not know the psychological effects, 
and it is important we monitor those as well.
    Although other hearings have received a lot of media 
attention because they have the CEOs of oil companies around, 
this hearing and this committee and this jurisdiction of health 
is critically important because this committee will be 
monitoring this issue for the next couple of decades. We will 
clean up the beaches, we will reestablish some of those areas, 
but we have to remember that the human toll of this is going to 
be longstanding, and it is important that the work we do today 
and the information received from this very astute panel is one 
that helps establish what we need to be doing in that 
direction.
    With that I yield back, Mr. Chairman.
    Mr. Pallone. Thank you, Mr. Murphy.
    Yield to our full committee chairman, Mr. Waxman.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Pallone. Thank you for 
holding today's hearing on the Department of Health and Human 
Services' critically important role in assessing the health 
effects of the Deepwater Horizon oil spill.
    It has been nearly 2 months since this tragedy took place, 
killed 11 people, injured 15 others, it is doing an enormous 
amount of damage to the environment and to the economy of 
people in the Gulf. Our committee has been very involved in 
oversight on this issue. Tomorrow we are going to hear from--
directly from the BP CEO Tony Hayward.
    Today's hearing, although it is looking at a different 
aspect of the spill and underscores one reason why our focus is 
so comprehensive and so important, this oil spill has the 
potential to directly impact for years to come the health and 
wellbeing of millions of people who live and work in or near 
the Gulf area. I hope to get from our witnesses their 
examination of the potential health risks for cleanup workers, 
many of whom can no longer engage in their primary livelihoods, 
learn about how the spill may touch the broader population 
living near the Gulf, risks that may include respiratory 
complications, headaches, throat, eye irritation, rashes and 
skin problems, nausea, fatigue, and heat exhaustion. The 
possibility of more serious long-term illnesses has also been 
under study.
    We need to hear from people in the Department of Health and 
Human Services to assess these potential risks and address 
whatever health problems do materialize, that working with each 
other, the different agencies, with other departments, with 
state and local governments on surveillance mechanisms, food 
safety controls, worker training programs, epidemiological 
studies. Unfortunately, I suspect their efforts will be needed 
for a long time to come.
    Yesterday in testimony before this subcommittee Dr. Francis 
Collins, Director of the National Institute of Health, 
committed $10 million for research on the health effects of the 
oil spill. This is exactly the type of initiative that needs to 
be undertaken now, and I commend NIH for its efforts.
    I know our own activities regarding this disaster will 
continue for as long as necessary and appropriate. Indeed, as 
the primary committee in the House for overseeing the 
Department of Health and Human Services we are committed to 
ensuring that HHS lives up to its responsibility and most 
especially to its mandate to protect the public health.
    With that, Mr. Chairman, I thank you for the hearing. I 
thank our witnesses for testifying and being here today. I look 
forward to their testimony and working with them in the future.
    Yield back.
    [The prepared statement of Mr. Waxman follows:]
    [GRAPHIC] [TIFF OMITTED] 77912A.008
    
    [GRAPHIC] [TIFF OMITTED] 77912A.009
    
    [GRAPHIC] [TIFF OMITTED] 77912A.010
    
    [GRAPHIC] [TIFF OMITTED] 77912A.011
    
    Mr. Pallone. Thank you, Chairman Waxman.
    The gentlewoman from Tennessee, Mrs. Blackburn.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Welcome to all of you, and Mr. Chairman, 
thank you for the hearing, and I am pleased that we are going 
to take some time and look at the potential health effects of 
the ongoing oil spill in the Gulf.
    It has--and having been down there to the Gulf, I know that 
it has greatly impacted the livelihoods and the health of 
workers, volunteers, and nearby communities that have not seen 
this type disaster before. We appreciate the significant effort 
by the agencies that are before us today to keep those involved 
safe through coordinated efforts focused on preventative 
measures such as worker training, seafood sampling, and closing 
hazardous waters.
    Everybody knows that we are seeing the 63,000 barrels a day 
going into the ocean, and t seems to be no reprieve 
unfortunately, or resolution in sight. The fishing restrictions 
and the lack of tourism during the busiest time of year for 
this region is really devastating the economy, and it is 
changing the livelihoods forever. It truly is a sad situation.
    Furthermore, the drilling moratorium in the region has only 
exacerbated the financial issues that families in this region 
are experiencing. For many families the moratorium has made it 
impossible to maintain the type lifestyle they had prior to the 
spill.
    That said, we must stay vigilant on this issue and monitor 
it closely, focusing not just on the physical health but also 
the mental health. At this stage immediate care must be sought 
and documented for all workers who become ill during the 
cleanup efforts going forward. The Administration must work 
with all stakeholders to ensure that necessary safety measures 
are in place to protect the workers and the coastline 
communities. The spill isn't over, and we can't yet examine the 
lasting health effects, but the Administration can take 
proactive steps to protect communities, public health, and 
workers throughout the course of the spill.
    Thank the Chairman, and I yield back.
    Mr. Pallone. Thank you, Ms. Blackburn.
    Next I would yield to our Chairman Emeritus, Mr. Dingell.
    Mr. Dingell. Mr. Chairman, I thank you for your courtesy. I 
commend you for holding this hearing. I ask unanimous consent 
that my excellent opening statement be included in the record 
for the reading of all who will, I am sure, enjoy it much.
    Thank you.
    [The prepared statement of Mr. Dingell was unavailable at 
the time of printing.]
    Mr. Pallone. Without objection, so ordered, and all of the 
opening statements will be submitted for those who desire to 
enter them.
    Next is--we will go to our--is she there? Lois is not 
there. Next is the gentlewoman from the Virgin Islands, Mrs. 
Christensen.

       OPENING STATEMENT OF HON. DONNA M. CHRISTENSEN, A 
       REPRESENTATIVE IN CONGRESS FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Mr. Chairman, and thank you, 
Chairman Pallone and Ranking Member Shimkus, for holding this 
hearing. There are some of us who have been asking over and 
over about the health effects of this disaster, and the answers 
have often been as unsatisfying as the prior promises of 
protection of the workers have been empty until recently.
    So we welcome this opportunity to discuss one aspect of the 
BP oil spill that has not gotten much public attention, the 
health effects and the actions that the U.S. Department of 
Health and Human Services has and plans to take.
    We have heard some of the health impacts that were the 
result of similar, but smaller it turns out, catastrophic 
accident in Alaska just over 2 decades ago as well as some 
others, but it still seems that the long-term effects are 
unclear.
    So I want to thank today's witnesses for joining us to 
provide an update on the efforts that each of your respective 
agencies is undertaking to help tackle this horrific disaster 
and protect the health and wellbeing, not only of the workers 
but residents in the affected communities. I hope that we will 
hear what experience your agencies might have had in the past 
with oil spills and what institutional memory remains that is 
informing your responses today.
    I also hope that we will hear more coordination from you 
with this--among yourselves and with state and local agencies 
that we have heard from other monitoring and responding 
agencies. We have already lost 11 lives that should not have 
been lost. We have to do everything we can to address the 
health needs of those they left behind, as well as the workers 
and the residents of the area.
    As we know from Katrina and other natural assaults on the 
region, the Gulf Area is home to many vulnerable population 
groups, and so I am especially interested in hearing how the 
affected communities' most vulnerable residents who likely 
already had under-addressed health and healthcare needs before 
the spill, factor into your outreach of protection and 
response.
    Again, I want to thank the witnesses for appearing and 
thank the Chair and Ranking Member for holding this hearing.
    Mr. Pallone. Thank you. Mr. Sarbanes.

OPENING STATEMENT OF HON. JOHN P. SARBANES, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Sarbanes. Thank you, Mr. Chairman, for convening this 
meeting. There are so many different narratives that are 
unfolding with respect to this catastrophe, and they are 
unfolding in stages. There was, obviously, the initial loss of 
life, of the spill itself, which continues every minute of 
every day, the assault on the coast in terms of the effects on 
wildlife and the marshlands and the other impact, the 
underwater plumes. That is another narrative that is underway. 
The loss of industries, fishing, shrimping, tourism, and then, 
of course, the health effects, which is what we are to speak of 
today.
    In all of these narratives, most of them are potentially 
unending narratives. I mean, they are going to go on for 
decades and decades. It is really impossible to overstate the 
impact this catastrophe is going to have on our country, and we 
are really just at the very beginning of our understanding of 
all of the ramifications of this, but we do have to begin to 
build a record. We have to begin to try to understand what this 
is meaning, and that is part of what this hearing is designed 
to do.
    So I thank you for convening it, and I yield back.
    Mr. Pallone. Thank you.
    The gentleman from Georgia, Mr. Barrow.
    The gentleman waives.
    Next is the gentlewoman from Illinois, Ms. Schakowsky.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you. The Oversight and Investigations 
Committee went down to Chalmette, Louisiana, for a hearing, and 
we heard testimony from Wilma Subra from the Louisiana 
Environmental Action Network, and I wanted to tell you a little 
bit about her testimony if you hadn't seen it about some of the 
problems with health.
    First of all, they hired a lot of the fishermen who were--
who are out of work, and initially they were required to sign 
an agreement that seriously compromised--I am reading now 
from--``that seriously compromised their existing and future 
rights and potential legal claims. A judge thought that was 
overbroad, and BP entered into a stipulated judgment that 
removed that.''
    But then this organization, a private organization, began 
distributing protective gear to the fishermen to utilize during 
cleanup activities, half-face respiratories with organic 
cartridges, goggles, gloves, and sleeve protectors. She later 
said that they were encouraged not to use those.
    In fact, at one point as I recall, she said in the Q & A 
that heat stress was the reason and that some--I don't know if 
it was HHS or someone from the government of Louisiana agreed 
with that and so they were afraid to use those respirators, and 
she said the fishermen were reluctant to report their health 
systems for fear that they would lose their jobs and initially 
the women were, their wives were expressing concern, but then 
they stopped speaking out, ``for fear their husbands would lose 
their jobs.''
    The Louisiana Department of Health and Hospital stated that 
oil cleanup workers, ``should avoid skin contact in oral cavity 
or nasal passage, exposure to oil spill products using 
appropriate clothing, respiratory protection, gloves, and 
boots.'' But she continued throughout her testimony to say that 
there was not the proper training, that that equipment was, in 
fact, not provided. The shrimpers have not been provided with 
the appropriate protective gear. The oily skimmers and pads are 
being pulled into the shrimp boats by the boat crews with bare 
hands and no protective gear. On May 26 a number of workers 
became ill on the job, transported to the hospital.
    So we have lots of testimony now that these things are 
going on. The President said in his speech yesterday that 
30,000 personnel were there, that he has authorized the 
deployment of 17,000 National Guard, then there are volunteers 
who are working down there. I think we do have a tremendous 
responsibility to avoid the situation that followed 9/11, and 
there is every potential for that happening.
    So I am very glad that you are today, looking forward to 
your testimony. Thank you.
    Mr. Pallone. Thank you.
    I yield to our Vice-Chairman, Ms. Capps.

   OPENING STATEMENT OF HON. LOIS CAPPS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Capps. Thank you, Mr. Chairman, for holding this 
hearing.
    While much focus has been on addressing BP's oil spill as 
an economic and environmental crisis, which it certainly is, I 
think it is incredibly important that you all and we all are 
today to discuss the public health crisis that is unfolding in 
front of us.
    First off, I want to commend the Obama Administration for 
the important, life-saving public health response efforts that 
it has undertaken already. I think that your testimony today 
will show the many ways that your agencies are actively 
involved in the process.
    But reports of workers becoming ill from their involvement 
in the oil spill cleanup still persist. It is not only the 
workers who are suffering, the health of residents and I fear 
even tourists, may be also affected long into the future due to 
contaminated beaches and shorelines.
    Cleanup workers, often local fishermen and shrimpers, are 
not formally trained to work with toxic chemicals and currently 
rely on BP for training and provision of necessary protective 
equipment.
    However, according to an internal Department of Labor memo, 
there has been a general systemic failure from BP to ensure the 
safety and health of the responders, and numerous media reports 
of minimal training from BP and photographs of workers without 
protective gear, this documents that these workers are not 
being protected.
    BP has made clear that they are incapable of making the 
protection of the public health their priority. It lacks the 
expertise, the resources, or incentives to really address the 
public health and worker safety issues resulting from this 
spill.
    That is why I have written to the Obama Administration, 
urging it to relieve BP of their role in the public health 
response and instead leverage the good work that you all are 
already doing to protect the public's health.
    One area I do feel needs to be addressed is the 
coordination of these efforts. There is a unique tragedy that 
we are experiencing now, and as such requires a unique, multi-
disciplinary response to health protections. While you all 
represent the numerous departments within HHS responding to 
BP's spill, other agencies like OSHA, NOAA, and the EPA also 
have a role to play in protecting the health and safety of Gulf 
workers and communities. What is done now to protect the health 
and safety of workers and communities will have impacts long 
into the future.
    As a public health nurse who lived through the 1969 spill 
in Santa Barbara, I know that the damage brought by an oil 
spill can continue to haunt the public's health, and while I 
hope that we hear more today about the work being done by HHS 
to protect these groups in the short term from acute health 
problems associated with exposure to oil and the dispersants 
and detergents used to clean it up, I hope we can also discuss 
what research can be done to learn from this disaster so that 
future generations can be better protected.
    I know you all would agree that nothing is more important 
than protecting the health of the oil spill workers and Gulf 
Coast communities. If BP will not take the necessary steps to 
protect the public's health, then the Federal Government must 
increase its coordinated efforts to protect the health and 
safety of oil spill workers and the Gulf communities. I know 
that you and your administrations share this concern.
    I look forward to hearing your testimony and working with 
you to achieve this important goal.
    I yield back, Mr. Chairman.
    Mr. Pallone. Thank you, Ms. Capps.
    The gentlewoman from Florida, Ms. Castor.

  OPENING STATEMENT OF HON. KATHY CASTOR, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Ms. Castor. Mr. Chairman, thank you very much for calling 
this hearing, and I want to thank our agency experts. You all 
have been very proactive, and we need your continued help, but 
I have to say that I am very angry that we are at this point.
    I am reflecting the frustration of my fellow Floridians and 
Gulf Coast residents who have been dealing with this BP 
disaster for weeks and weeks and the anxiety that there is no 
end in sight.
    I have to say, Mr. Chairman, the BP disaster confirmed our 
worst fears about the risks associated with offshore oil 
drilling in the near places that rely upon tourism and fishing 
to drive our economies and our small businesses.
    I am deeply concerned about the devastating impacts of the 
BP disaster, not just to Florida tourism and fishing but also 
the potential health effects on workers, volunteer responders, 
and people living in the Gulf communities.
    I would like to thank President Obama and my colleagues who 
have all been pressing BP to set aside a significant amount to 
address the economic and environmental impacts because it was 
announced just a little while ago that BP will, indeed, put up 
$20 billion.
    The question is will that fund include--give us the ability 
to address the physical harm to people and the public health. 
The taxpayers certainly should not be on the hook for this.
    I do appreciate FDA and NOAA releasing a statement on 
Monday about the efforts underway to ensure that the seafood 
from the Gulf is safe to eat and notices that the public should 
not be concerned about seafood in the stores, and thank you 
also to CDC for announcing that tar balls washing up on 
Florida's panhandle beaches are not harmful, and by the way, 
you know, just a small part of the panhandle is suffering the 
effects of oil. The rest of Florida is pristine waters and is 
open for business, and we need you to continue with your 
vacations with summer.
    But the reality is that many families remain frightened and 
uncertain about what to believe, and there are conflicting 
stories in the news about the health effects of the disaster. 
Most experts state that brief contact with crude oil is not 
harmful, however, some other scientists say that evidence 
exists that many of the compounds in crude oil are dangerous. 
Toxicologists explain that cleanup workers, many of whom are 
out-of-worker fishermen participating in the Vessels of 
Opportunity Program, could face problems with breathing and 
coordination and increased risks of cancer. So give us the best 
data you have and tell us how we protect our hardworking folks.
    Furthermore, while EPA has directed BP to reduce 
dispersants application by 75 percent, we know that BP early on 
failed to use a less toxic dispersant and 1.1 million gallons 
of Corexit have already gone into the Gulf of Mexico and is a 
threat to public health. What is the real story here, and what 
do we have to do to monitor it in the near term and in the long 
term? Because we know that Corexit does pose a health, human 
health risk and is even tied to lingering health concerns from 
the Exxon Valdez.
    So the people we represent deserve answers. We certainly 
can't rely on BP to put the public's health needs ahead of 
their business interests and corporate damage control. We need 
your help. We have got to make sure they have got the right 
protective gear, and they are getting the best expert advice 
available. We are relying on you, and we are your partners in 
making sure this information is disseminated.
    So thank you very much.
    Mr. Pallone. Thank you.
    The gentleman from Arkansas, Mr. Ross.

   OPENING STATEMENT OF HON. MIKE ROSS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ARKANSAS

    Mr. Ross. Thank you, Mr. Chairman, for holding today's 
hearing to examine how the Department of Health and Human 
Services, HHS, is responding to the public health risks 
associated with the Deepwater Horizon oil spill, now the worst 
environmental disaster in our Nation's history.
    I first want to express my continued frustration and 
disappointment that we are on day 58 of this environmental 
disaster, and BP still does not have a concrete plan to stop 
the leak or clean up the oil that has been gushing into the 
Gulf of Mexico for almost 2 months now.
    What we do know is that the nearly or up to 60,000 barrels 
of oil a day that is being released every day into the Gulf is 
hurting and killing hundreds of thousands of species of 
animals.
    What we do know is that this disaster is destroying one of 
the most sensitive ecosystems in the world on which many people 
depend.
    What we don't yet know is the total extent of this damage. 
What we don't yet know is how this spill will affect the health 
and safety of the people who live and work in the Gulf Coast 
region or those vigorously working to clean it up.
    We cannot properly move forward until we know how bad of a 
situation we are facing, and that is the point of today's 
hearing.
    Last night President Obama announced that he will be 
directing BP to establish an independently-administered account 
to help pay for the spill-related cleanup and economic damage 
claims. This is only one of many needed steps in moving forward 
towards addressing this terrible tragedy.
    T are many lessons and hopefully forthcoming solutions to 
be learned from this preventable disaster that started back in 
April. Sadly, the impact of this catastrophe is one that will 
ultimately need to be measured not in weeks and months but in 
years. We must take this opportunity to not only examine our 
safety standards in deepwater drilling but to also examine how 
this spill is affecting both the short-term and long-term 
health of all those living and working in the affected region.
    I look forward today to discussing ways we can mitigate 
these harmful effects. I want to thank the witnesses who have 
come before the subcommittee today to testify about the efforts 
being taken by our government to evaluate and help those who 
are and will be physically, emotionally, and economically 
impacted by this disaster.
    Our government must do more to hold BP and other oil 
companies accountable for careless offshore drilling practices 
and the resulting harm they cause. We must ensure the most 
advanced technologies and safety procedures are in place so 
that we never face this situation again.
    Mr. Chairman, I yield back.
    Mr. Pallone. Thank you, Mr. Ross.
    Next is the gentleman from Texas, Mr. Green.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman, for holding the hearing 
on HHS's efforts to address the known and potential health 
effects of the BP oil spill in the Gulf.
    The Gulf of Mexico is in the midst of dealing with an 
incident that is tragedy like we have never seen, and my 
thoughts and prayers go out to the families and communities 
affected by this terrible accident. Energy and Commerce 
Committee has held several hearings in our Energy and Oversight 
Investigation Subcommittee on the topic, and I believe it is 
crucial we begin to examine and prepare for the potential 
health effects of the oil spill in the Gulf.
    Today we are focused on how the spill might impact the 
local communities on the coast as well as the workers who are 
working diligently to clean up the spill day in and day out. 
Approximately 13,000 cleanup workers have been employed by BP 
or its contractors, and more than 1,800 federal employees have 
been directly involved in cleanup operations over four states. 
The health and welfare of these affected communities and 
workers are a priority for me, and I know my colleagues on this 
committee, and I appreciate our looking into the issue today.
    I understand from the testimony we will hear today that 
knowledge of the potential risks from the BP oil spill comes 
from scientific studies following the Exxon Valdez disaster in 
Alaska and other major oil spills around the world. The 
potential health risks are primarily due to inhaling toxic 
vapors, physical contact with the oil through skin or 
ingestion, and psychological stress in confronting the 
devastation.
    I appreciate our committee looking into this and hopefully 
hearings will ensure that our government is doing everything in 
its power to protect the health of individuals who reside in 
the affected areas and especially those that are directly 
involved in the cleanup.
    And, again, Mr. Chairman, thank you for holding the 
hearing, and I yield back my time.
    Mr. Pallone. Thank you, Mr. Green.
    I yield now to the gentlewoman from Ohio, Ms. Sutton.

  OPENING STATEMENT OF HON. BETTY SUTTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Ms. Sutton. Thank you, Mr. Chairman, and I appreciate your 
holding this hearing today.
    Everyone on this committee is familiar with the health 
effects that continue to afflict the first responders and 
others who were present at the World Trade Center on 9/11 and 
during the recovery operations there. Not long ago this 
committee passed a 9/11 Health Bill to help those who were 
hurt, and we all remember it was a federal agency, the EPA, who 
said that the dust around the World Trade Center in the days 
after 9/11 was safe to breathe.
    Volunteers and workers were told it was safe to be at 
ground zero and that it was safe to work there, but we sadly 
know now that that was not true. We now know 9 years later that 
people who worked and lived near ground zero suffer from a 
variety of health problems, ranging from respiratory illnesses 
to mental health disorders. And as we sit here today facing 
another tragedy, this one caused by BP, we must make sure that 
the mistakes that were made in the days and the weeks after 
September 11 are not made now.
    Every worker, every volunteer, every resident, and every 
person who comes in contact with this spill needs to be 
protected. We must act to ensure that they are safe to the best 
of our ability.
    BP's own documents which are posted on the Investigative 
Journalism website, Pro Publica, show that between April 22 and 
June 10 485 of their workers have been injured. Already the 
Louisiana Department of Health is reporting 109 illnesses in 
spill workers after exposure to oil or dispersants. And sadly 
there will be more to come.
    This oil spill is a tragedy on so many levels, and we must 
do all that we can to prevent the spill from damaging the 
public's health for years and years to come.
    I thank the witnesses for being today, and I look forward 
to hearing about what HHS is doing to prevent a damaging 
outcome in the days and the years ahead. Thank you, and I yield 
back.
    Mr. Pallone. Thank you, Ms. Sutton.
    Next is the gentleman from Iowa, Mr. Braley.

OPENING STATEMENT OF HON. BRUCE L. BRALEY, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IOWA

    Mr. Braley. Mr. Chairman, I am glad we are having this 
hearing, because it is a good opportunity to talk about the 
health impacts of the BP oil disaster on the responders, those 
living and working in the affected communities, and in our food 
chain. It is hard to recognize the true impact of this 
devastating release of oil until you have seen it with your own 
eyes and smelled it with your own nose.
    And back in Iowa when I was growing up and we didn't have a 
lot of entertainment, we would have people come over to our 
house, and we would show them slides of things we had been 
doing in our lives, so I am going to show you some slides of my 
trip last week to the Gulf Coast.
    This is a shot from Venice, Louisiana, at the mouth of the 
Mississippi River, which is vital to my State because it is the 
scene of the southwest passage where a lot of the grain that is 
produced in the mid west enters the Gulf Stream of commerce. 
And those are ships that were leased by BP that used to be 
involved in the fishing industry. They are sitting there on a 
very rainy day.
    We went out on a cargo plane after our field hearing and 
had the opportunity to sit there with the end gate open and fly 
over miles and miles of the delta and miles and miles of open 
water with plumes of oil, and this shot is taken out the back, 
and you can see one of the relief vessels right there in the 
lower right-hand corner, and then this is a shot that shows you 
those plumes of oil on the water. You can also see little 
ribbons that look like underway fire, which is where the 
dispersal chemicals were interacting with the oil below the 
surface. It literally looked like ribbons of fire.
    And this is another shot of the same plume. This is, again, 
flying right over where the relief wells are being drilled. You 
can see the drilling ship and the plume ships that are around 
it, and that is a more close-up shot. You can actually see the 
burn off coming right off of the ship that is drilling the 
relief well.
    One of the things that I can't show you is the immense 
stench coming off the water with that hatch open from the oil 
coming off the surface of the Gulf of Mexico. That is what 
these relief workers and the people living in these communities 
are dealing with on a daily basis.
    This is a picture of the plane we flew in with the Admiral 
for the Coast Guard, who is leading the response effort on the 
ground. This is a picture from our field hearing where we heard 
from two of the widows who lost their husbands when that 
Deepwater Horizon rig exploded. Fittingly, you will see a 
picture of Andrew Jackson on a horse behind us because that is 
the same location where the Battle of New Orleans was fought.
    But this picture to me captures the challenge we face, 
because no one appreciates the enormous mass of the Mississippi 
Delta when the Mississippi empties in the Gulf of Mexico. So 
you see some of the waterways that are part of the delta, you 
see the enormous land mass that is interfacing with the water 
that is all exposed to this oil release. And that is why until 
you have flown those massive miles that are affected by this 
disaster, it is impossible to really comprehend what we are 
going to do to solve this problem.
    So I look forward to your testimony, and I look forward to 
working with you as we try to restore some sanity to what is 
going on in the Gulf of Mexico.
    Mr. Pallone. Thank you, Mr. Braley. I think that concludes 
our members' statements, and so I will now turn to our 
witnesses, and I want to welcome our panel. Let me introduce 
each of them.
    On my left is Dr. Lisa Kaplowitz, who is Deputy Assistant 
Secretary for Policy of the Office of the Assistant Secretary 
for Preparedness and Response with HHS, and next to her is Dr. 
John Howard, Director of the National Institute of Occupational 
Safety and Health, the Centers for Disease Control and 
Prevention. And then we have Dr. Aubrey Miller, who is the 
Senior Medical Advisor for the National Institutes of 
Environmental Health Sciences with the National Institutes of 
Health, and finally is Mr. Michael Taylor, who is the Deputy 
Commissioner for Foods with the FDA.
    And I want to welcome all of you. Thank you for being here. 
You know we have 5-minute opening statements become part of the 
record, and you may submit additional written comments 
afterwards if you would like.
    We will begin with Dr. Kaplowitz. Thank you for being here.

STATEMENTS OF LISA KAPLOWITZ, M.D., M.S.H.A., DEPUTY ASSISTANT 
  SECRETARY FOR POLICY, OFFICE OF THE ASSISTANT SECRETARY FOR 
PREPAREDNESS AND RESPONSE, U.S. DEPARTMENT OF HEALTH AND HUMAN 
  SERVICES; JOHN HOWARD, M.D., M.P.H., J.D., LL.M., DIRECTOR, 
 NATIONAL INSTITUTE OF OCCUPATIONAL SAFETY AND HEALTH, CENTERS 
   FOR DISEASE CONTROL AND PREVENTION; AUBREY MILLER, M.D., 
     M.P.H., SENIOR MEDICAL ADVISOR, NATIONAL INSTITUTE OF 
 ENVIRONMENTAL HEALTH SCIENCES, NATIONAL INSTITUTES OF HEALTH; 
 AND MICHAEL TAYLOR, J.D., DEPUTY COMMISSIONER FOR FOODS, U.S. 
                  FOOD AND DRUG ADMINISTRATION

                  STATEMENT OF LISA KAPLOWITZ

    Dr. Kaplowitz. Thank you. Mr. Chairman----
    Mr. Pallone. I don't know if that is on. Is the green light 
on?
    Dr. Kaplowitz. I have to move it closer.
    Mr. Pallone. Oh, yes. Move it closer. That works.
    Dr. Kaplowitz. The green light is on.
    Mr. Pallone. Thanks.
    Dr. Kaplowitz. Chairman Pallone, Ranking Member Shimkus, 
and distinguished members of the subcommittee, thank you for 
the opportunity to testify today about our public health and 
medical efforts in response to the Deepwater oil spill 
disaster. I commend this subcommittee for its leadership in 
holding today's hearing and share your sense of urgency on this 
important issue.
    On behalf of the Department I would like to extend my 
sympathies to the families of those who lost their lives in 
this disaster, to those who were injured and to those whose way 
of life has been changed for years to come. The impacts of this 
disaster must be considered in the timeframe of not weeks and 
months but years. Oil can remain toxic in the environment for 
many years, and we do not know the impact it could have on 
human health over the long term.
    As the agency responsible for coordinating HHS preparedness 
and response efforts, ASPR chairs a twice-weekly policy call 
with other HHS agencies involved in the Gulf response, 
including the NIH, CDC, FDA, ACS, SAMSA, and other offices 
within HHS as well as the Secretary's Chief of Staff.These 
calls assure that HHS response efforts are coordinated among 
all agencies and office.
    ASPR also provided direct support and is providing direct 
support to the oil spill through the National Disaster Medical 
System. From the time of the announcement of the explosion and 
fire, ASPR's regional emergency coordinators in the Gulf Coast 
areas were in close communication with each State's Emergency 
Coordinator, the State Departments of Health, and the 
Association of State and Territorial Health Officials, HHS 
liaison officers deployed to the unified area command team in 
Robert, Louisiana, to the incident command centers in Houma, 
Louisiana, and Mobile, Alabama, and to the National Incident 
Command Center at the U.S. Coast Guard Headquarters in 
Washington, DC.
    On May 31, HHS, in coordination with the Louisiana 
Department of Health and Hospitals, set up a mobile medical 
unit in Venice, Louisiana, to provide triage and basic care for 
responders and residents concerned about health effects of the 
oil spill. The medical unit screens workers and citizens for 
exposure and refers those who require further care to local 
healthcare providers or hospitals.
    Our goal is to support the local community and fill in any 
gaps that may be there, not to displace local providers. As of 
today the NDMS Medical Unit has seen over 140 patients since 
opening. Thus far some patient conditions, such as heat stroke, 
have been consistent with any response effort in the area.
    In total about 38 percent have been treated for acute 
respiratory conditions, another 27 plus patient encounters have 
been for dermatologic eye or gastrointestinal problems, as well 
as a number of individuals who have been treated for injuries.
    The Department is also directing attention and resources to 
address the behavioral health issues arising from the oil 
spill. Our experience and research from previous disasters, 
including the Exxon Valdez spill, allow us to anticipate and 
prepare for potential behavioral health needs such as anxiety, 
depression, and other adverse emotional and psychological 
effects.
    To date the Department's Substance Abuse and Mental Health 
Services Agency has engaged in supporting state and local 
efforts to assess and meet the behavioral health needs of 
residents of the Gulf States and workers responding to this 
environmental disaster.
    In addition, since the information available to inform 
decision making related to the human health impacts is 
inconclusive, Secretary Sebelius has asked the Institute of 
Medicine to convene an independent panel of scientific experts 
at a public workshop, exploring a broad range of health issues 
related to the oil spill. From heat exhaustion and other 
occupational hazards to exposure to oil and dispersants. This 
workshop will be next week on June 22 and 23 in New Orleans.
    In conclusion, I want to assure the subcommittee that our 
office, along with our sister agencies within the Department 
and the administration as a whole, are taking the public health 
and medical consequences of the oil spill disaster very 
seriously and are implementing a comprehensive strategy to 
monitor and address any public health and medical issues that 
may arise.
    Thank you for the opportunity to testify today, and I am 
happy to answer any questions.
    [The prepared statement of Dr. Kaplowitz follows:]
    [GRAPHIC] [TIFF OMITTED] 77912A.012
    
    [GRAPHIC] [TIFF OMITTED] 77912A.013
    
    [GRAPHIC] [TIFF OMITTED] 77912A.014
    
    [GRAPHIC] [TIFF OMITTED] 77912A.015
    
    [GRAPHIC] [TIFF OMITTED] 77912A.016
    
    [GRAPHIC] [TIFF OMITTED] 77912A.017
    
    [GRAPHIC] [TIFF OMITTED] 77912A.018
    
    [GRAPHIC] [TIFF OMITTED] 77912A.019
    
    [GRAPHIC] [TIFF OMITTED] 77912A.020
    
    [GRAPHIC] [TIFF OMITTED] 77912A.021
    
    [GRAPHIC] [TIFF OMITTED] 77912A.022
    
    [GRAPHIC] [TIFF OMITTED] 77912A.023
    
    Mr. Pallone. Thank you, Dr. Kaplowitz.
    Dr. Howard.

                    STATEMENT OF JOHN HOWARD

    Dr. Howard. Thank you, Mr. Chairman, and Ranking Member 
Shimkus and other members of the committee. I am here to 
provide you an update on CDC's activities in the Deepwater 
Horizon response.
    Following the fire and explosion on April 20, CDC 
immediately activated its Emergency Response Center to 
coordinate response activities across the agency. CDC's 
National Center for Environmental Health leads the incident 
command and works closely with the National Institute for 
Occupational Safety and Health to respond to potential health 
threats to the public, workers, and volunteers from the 
disaster.
    As of today CDC has 170 staff involved in the response 
including 17 staff deployed to the Gulf Coast States. 
Throughout this response CDC has been coordinating our efforts 
with other operating divisions of HHS and with the Coast Guard, 
OSHA, EPA, and most importantly with State Health Departments 
in the Gulf States.
    The response hazards to the public primarily include skin 
and respiratory irritation to various chemicals contained in 
the crude oil and in the oil dispersants. Skin contact should 
be avoided, and any area that has come in contact with oil 
should be washed thoroughly. Eye, nose, and throat irritation 
can occur from closer contact with crude oil. Those with asthma 
or chronic lung disease may be more sensitive than others to 
very low levels of hydrocarbons and even they and others can be 
sensitive to levels of hydrocarbons that are far below 
measurable levels.
    People who have questions about potential health effects 
related to the oil may visit our website for more information. 
We have information for residents, for professional healthcare 
professionals, for workers and volunteers.
    CDC in partnership with state and local health departments 
is tracking symptoms and health complaints that could be 
associated with the oil spill. Health surveillance and 
populations near the Gulf is being done through three 
mechanisms.
    First, we are collecting data from 60 poison control 
centers throughout the Gulf Region. Second, we are collecting 
data from the bio-sense surveillance system, which includes 86 
healthcare facilities, clinical laboratories, hospital systems, 
ambulatory care centers throughout the area to detect any 
increase in illnesses or other health effects.
    Third, we are analyzing surveillance data that is being 
collected by State Health Departments in the Gulf, which are 
monitoring potential health effects related to the oil spill. 
We posted initial results from these collaborative surveillance 
activities on our website, and we update those routinely.
    CDC is also evaluating air, data from air, sediment, and 
water samples in the Gulf, looking for any indication of 
contaminants at levels that would pose a threat to public 
health. After EPA's public release of the chemical components 
of the dispersants being used in the response, CDC has 
completed a preliminary review of the toxicity of these 
dispersant components and has concluded that the substances of 
greatest concern to human health are being monitored by EPA.
    NIOSH is doing three major activities and is working 
together with the Occupational Safety and Health 
Administration. First, we are rostering all workers and 
volunteers included in the response by means of a voluntary 
questionnaire. To date we have rostered 13,000 workers, and we 
hope to continue that process to get all of the workers and 
volunteers.
    Second, NIOSH is analyzing data from all sources for worker 
symptoms, health complaints, work-related injuries or incidents 
so that we can recommend interventions to prevent future 
injuries and illnesses. Third, NIOSH is conducting a Health 
Hazard Evaluation of reported illnesses among workers involved 
in offshore cleanup operations as requested by BP on May 28. 
Finally, as response activities proceed, CDC is working to 
protect the health and safety of workers, volunteers, and 
residents in the affected areas of the Gulf State, and as we 
learn more we will update our recommendations.
    I thank you for your continued support, and I am pleased to 
answer any questions you may have.
    [The prepared statement of Dr. Howard follows:]
    [GRAPHIC] [TIFF OMITTED] 77912A.024
    
    [GRAPHIC] [TIFF OMITTED] 77912A.025
    
    [GRAPHIC] [TIFF OMITTED] 77912A.026
    
    [GRAPHIC] [TIFF OMITTED] 77912A.027
    
    [GRAPHIC] [TIFF OMITTED] 77912A.028
    
    [GRAPHIC] [TIFF OMITTED] 77912A.029
    
    [GRAPHIC] [TIFF OMITTED] 77912A.030
    
    [GRAPHIC] [TIFF OMITTED] 77912A.031
    
    [GRAPHIC] [TIFF OMITTED] 77912A.032
    
    [GRAPHIC] [TIFF OMITTED] 77912A.033
    
    [GRAPHIC] [TIFF OMITTED] 77912A.034
    
    [GRAPHIC] [TIFF OMITTED] 77912A.035
    
    [GRAPHIC] [TIFF OMITTED] 77912A.036
    
    [GRAPHIC] [TIFF OMITTED] 77912A.037
    
    [GRAPHIC] [TIFF OMITTED] 77912A.038
    
    Mr. Pallone. Thank you, Dr. Howard.
    Dr. Miller, you are next.

                   STATEMENT OF AUBREY MILLER

    Dr. Miller. Thank you, Mr. Chairman, Ranking Member 
Shimkus, and the rest of the committee. Thank you for this 
opportunity to provide information about the activities 
undertaken by the National Institute of Environmental Health 
Sciences, NIEHS, in response to the oil spill disaster in the 
Gulf of Mexico. My name is Aubrey Miller. I am Senior Medical 
Advisor to the Director of NIEHS and the National Toxicology 
Program.
    While extensive data exists on the effects of oil spills in 
wildlife and ecosystems, the effects on human health from these 
exposures have not been well studied. Experts agree that the 
potential for human health hazards exist since both crude oil 
and chemicals being used to fight the spill contain harmful 
substances.
    Yet understanding and quantifying these effects requires 
further study. A recent review article which looked at 34 
publications concerning the health effects related to past oil 
spill, past tanker oil spills made clear that there is very 
little data concerning exposed individuals and only for a 
handful of these incidents.
    Historically, the workers involved in such cleanups have 
reported the highest levels of exposure and most acute 
symptoms. The reporting of higher levels of lower respiratory 
track symptoms was observed in fishermen who have participated 
in the cleanup following the Prestige tanker accident off the 
coast of Spain.
    A few studies have looked at psychological effects of 
spills both among workers and in affected communities. Follow-
up studies of affected populations from the Exxon Valdez spill, 
for example, reported higher levels of anxiety disorder, post-
traumatic stress disorder, and depression. Such research 
findings remind us of the importance of keeping longer-term, 
less-obvious sequel in mind, not just the immediate toxicity 
affects when considering the overall health impact of this type 
of disaster.
    Now, turning our attention to the Gulf oil spill response, 
our program director was on site within days of the platform 
explosion. NIH--an NIEHS team have been a continuous presence 
in Louisiana and have been working with the National Incident 
Command officials, as well as local and state officials, 
academic institutions, and other federal agencies to provide 
technical assistance for worker safety training related to the 
oil spill through NIEHS's Worker Training Education Program.
    The NIEHS Superfund Worker Training Program has provided 
safety training to emergency responders and hazardous materials 
workforce for the last 23 years. For other emergency responses 
such as the World Trade Center attack and now the oil spill, 
NIEHS was able to provide nearly immediate assistance to help 
protect workers.
    Three different levels of training for oil spill workers 
have been developed and supported by NIEHS; 40-hour training 
course on hazardous waste operations and emergency response, a 
short 2- and 4-hour training courses on safety and health 
awareness, developed together with OSHA, and as of June 10, BP 
reports that it has trained approximately 30,500 people using 
NIEHS worker safety training materials.
    Additionally, more than 5,000 pocket-sized booklets titled, 
``Safety and Health Awareness for Oil Spill Cleanup Workers,'' 
have been distributed to instructors, safety officials, 
frontline responders, participants in the BP Vessels of 
Opportunity Program, and beach workers in the Shoreline Cleanup 
Assessment Team. These booklets have been printed in English, 
Spanish, and Vietnamese. Here is an example of one. NIEHS has 
helped support and facilitate interagency coordination to 
protect the workers and the public affected by this disaster.
    To help assess the response to this oil spill crisis on 
June 1, NIEHS in cooperation with the Coast Guard and BP, 
facilitated a multi-agency public health assessment of the oil 
spill responders in the Louisiana area to determine the need 
for any additional medical support and additional mobile 
medical units.
    In addition, NIEHS has helped formed and is collating the 
interagency work crew, the Interagency Oil Spill Health 
Monitoring Researchers' Work Group. Within this work group 
NIEHS is focused directly on identifying all the relevant human 
health and toxicologic information to help inform our current 
actions and drive research efforts.
    Two, to develop new tools to gather information about the 
adverse health effects stemming from the oil spill, both in the 
short term and long term, and three, engaging additional 
stakeholders to work with us in these efforts that produce the 
best processes, products, and outcomes.
    Lastly, NIH is exploring a variety of different funding 
mechanisms and programs to carry out important research related 
to this particular disaster and the people whose health may be 
affected. We expect a number of researchers to apply 
immediately for our time-sensitive awards. Proposals are 
accepted each month, reviewed, and funded within 3 months, and 
as you noted, Mr. Chairman, that--NIH Director, Mr. Collins, 
has recently appropriated $10 million for additional research 
along these lines. These studies should prove useful 
information for some of our unanswered questions.
    One of the most important takeaway messages from our 
current and ongoing review of the science regarding human 
health effects of oil spill disasters is that there is a clear 
need for additional health monitoring and research to underpin 
our public health decisions. As the situation in the Gulf of 
Mexico continues to unfold, NIEHS will stay engaged, both as a 
committed partner in research, on the health effects of these 
exposures on workers and the affected communities, and our 
efforts to keep cleanup workers safe.
    Thank you, and I am happy to answer your questions.
    [The prepared statement of Dr. Miller follows:]
    [GRAPHIC] [TIFF OMITTED] 77912A.039
    
    [GRAPHIC] [TIFF OMITTED] 77912A.040
    
    [GRAPHIC] [TIFF OMITTED] 77912A.041
    
    [GRAPHIC] [TIFF OMITTED] 77912A.042
    
    [GRAPHIC] [TIFF OMITTED] 77912A.043
    
    Mr. Pallone. Thank you, Dr. Miller.
    Mr. Taylor.

                  STATEMENT OF MICHAEL TAYLOR

    Mr. Taylor. Good afternoon, Mr. Chairman, Ranking Member 
Shimkus, and other members of the committee. I appreciate the 
chance to talk today about FDA's activities with respect to the 
food safety aspects of the Gulf oil spill.
    FDA is an integral part of the Federal Government's 
comprehensive, multi-agency program to protect the safety of 
seafood from the Gulf of Mexico. This program is important for 
consumers who need to know their food is untainted and for the 
seafood industry, which needs to be able to sell its products 
with confidence.
    FDA is working closely with NOAA, the Environmental 
Protection Agency, our HHS colleagues here, and state 
authorities on a multi-pronged approach to ensure the safety of 
seafood from the Gulf of Mexico. The measures we are taking 
begin with the precautionary closure of fisheries and are 
backed up by surveillance and testing of seafood products and 
continued enforcement of FDA's Hazard Analysis and Critical 
Control Points or HACCP regulations.
    The FDA and NOAA are also working together to develop 
protocols for reopening closed fisheries in the Gulf in a 
manner that ensures the safety of product from those areas.
    Based on these protective measures and the best available 
science, we are confident that Gulf of Mexico seafood in the 
market today is safe to eat.
    The primary preventative measure for protecting the public 
from potentially contaminated seafood is, of course, the 
closure by NOAA of fishing areas in the Gulf that had been or 
are likely to be affected by the oil spill. NOAA acted swiftly 
after the spill to close affected waters, and NOAA has been 
able to stay ahead of the spill with its closures by 
anticipating the movement of the oil spill and by including 5-
mile buffer zones around the affected areas. FDA is working 
closely with both NOAA and the states to ensure that 
appropriate closures are in place.
    To verify the effectiveness of the closures in protecting 
the safety of seafood, NOAA and FDA are collecting and testing 
a variety of types of seafood samples, including fin fish, 
shrimp, crabs, and shellfish. FDA's sampling is taking place at 
Gulf Coast Seafood Processors and is targeting oysters, crabs, 
and shrimp which could retain contaminants longer than fin 
fish. This sampling will provide verification that the closures 
are working and that seafood on the market is safe to eat.
    As an extra measure of protection to compliment the 
closures and testing, FDA is stepping up inspections of seafood 
processors under our seafood HACCP regulation. HACCP is a 
system of preventative controls under which seafood processors 
are required to identify and control potential food safety 
hazards in their operations. We have just reissued existing 
guidance to Gulf Coast seafood processors explaining how they 
can meet their obligation under the HACCP regulation to ensure 
they are not receiving fish from waters that are closed by 
federal or state authorities. The agency will be inspecting 
these facilities to verify compliance.
    Finally, FDA and NOAA are working closely with states on a 
protocol for determining when closed waters can be reopened. 
Under the protocol waters impacted by oil will not reopen until 
oil from the spill is no longer observable and seafood samples 
from the area successfully pass both century analysis by 
trained screeners and chemical analysis to verify the oil 
products are not present at harmful levels.
    NOAA and FDA will work to reopen previously-closed areas as 
quickly as possible in order to minimize the impact of closures 
on fishermen and coastal communities, while protecting public 
health.
    Mr. Chairman, we are all indebted to the scientists and 
frontline food safety specialists in our agencies and in state 
governments along the Gulf for their diligent and ongoing 
responses to this catastrophic oil spill. On their behalf I 
appreciate the opportunity to discuss their activities with 
you, and I look forward to questions that you and the committee 
may have. Thank you.
    [The prepared statement of Mr. Taylor follows:]
    [GRAPHIC] [TIFF OMITTED] 77912A.044
    
    [GRAPHIC] [TIFF OMITTED] 77912A.045
    
    [GRAPHIC] [TIFF OMITTED] 77912A.046
    
    [GRAPHIC] [TIFF OMITTED] 77912A.047
    
    [GRAPHIC] [TIFF OMITTED] 77912A.048
    
    Mr. Pallone. Thank you, Mr. Taylor, and now that you have 
finished your statements we will turn to questions from the 
members, and I will start with myself.
    And I am going to start with Dr. Howard. Dr. Howard, we 
know that thousands of workers are participating in the 
recovery efforts to clean up the BP oil spill, and clearly your 
primary goal is to ensure worker safety and have an accurate 
record of where workers are stationed in the Gulf.
    Can you explain NIOSH's role in monitoring these response 
workers who are participating in the recovery through 
rostering? And I know that there is a difference between ID'ing 
workers through a roster as opposed to a registry, so I guess 
my question is does this rostering contain enough information 
to follow up with people should a more-detailed health registry 
become necessary?
    And just generally, what kind of outreach have you done to 
reach the largest number of workers, and how many have you been 
able to ID so far?
    Dr. Howard. I think the simplest way to describe the 
difference between rostering and registering or between a 
roster and a registry is that a roster is a list. It is a list 
of workers. A registry is active management of those workers in 
terms of accessing their exposure profile, the health effects 
that they may be feeling, and following them through time.
    So the first step in a registry may, indeed, be collecting 
the names and demographic information of workers that you would 
then put into a registry. So it is a foundational step. It is 
the first step that we are taking.
    So it does not ever preclude a registry from actually 
happening.
    Mr. Pallone. And what kind of outreach have you done to 
reach the workers, and how many have you been able to ID so 
far?
    Dr. Howard. We have been able to roster nearly 13,000, and 
we do it in three ways. The first way that we started out a few 
weeks ago was by going to the actual sites where the workers 
are working. We are still doing that because we are not 
capturing everyone in the second method, which is as they come 
into a training center, before they are assigned for any 
cleanup work, we roster them at that time. There we are 
capturing nearly all of the workers who are coming in for 
training.
    Then the third method which we have been asked by both 
other government agencies like Coast Guard and EPA and BP 
workers themselves, is if we could do some web-based rostering. 
So we are developing a program that they can go onto the web. 
So those are the three methods; going out and finding them 
ourselves, two, rostering them in the training centers, and 
three, web-based rostering.
    Mr. Pallone. And what other plans are there in the future 
to document health problems, either by--either for workers or 
people in the community, too?
    Dr. Howard. Well, there is a lot going on in this area in 
terms of surveillance, looking at all of these systems that are 
in place now. I mentioned three different ways.
    One is through poison control centers. People call in, they 
complain or they ask information about a particular health 
issue. So we are looking at 60 poison control centers in the 
Gulf area, scanning all of their calls to see whether there is 
any oil-related issues, people complaining about eye, throat 
irritation, I smell hydro-carbon odors, et cetera.
    The bio-sense program, which surveys healthcare facilities, 
then looks at what is the reason that somebody came into a 
healthcare facility. Was it because I had eye and throat 
irritation because I went to an area in which I was involved in 
cleanup, could be a worker, or I was a resident. I went to a 
beach area, for instance.
    In the third activity we are looking at State Health 
Departments both--Louisiana and Mississippi, Alabama, and 
Florida do an excellent job in their State Health Departments 
at collecting information about health complaints, people that 
are going to seek medical attention.
    And what is interesting about that lately is that we have 
seen about four, 500 calls if you add up all of those calls, 
and they are all on our website, on the CDC website. If you 
look at that, about 75 percent of them are coming from workers. 
Only about 25 percent are coming from residents. So the 
proportion is obviously workers. There are, as you know, many 
millions of people who live in the Gulf area, so we are not 
seeing a large number of calls now, but we are monitoring, and 
what we are doing now is then looking at the types of 
information that we are getting, both from a call as well as an 
appearance in a healthcare facility. Then comparing that to the 
3 years previously as a way of looking at a baseline. Are we 
seeing more throat and eye irritation, more cough comes in? We 
are trying to compare the last 3 years to what we are seeing 
now.
    Mr. Pallone. Okay. I was going to maybe just quickly, Mr. 
Taylor, this idea with the FDA assessing whether the oil or the 
dispersants bio-accumulate in seafood, would you explain that 
to me? I mean, do the components in crude oil bio-accumulate in 
fish and other seafood, and do we need to be concerned about 
that in this, you know, with this crisis?
    Mr. Taylor. Well, if fish are exposed to oil, it will be 
present. It can be bio-concentrated, bio-accumulated in the 
fish, in the edible portion of the fish, and this is why, of 
course, the primary preventive measure is to close waters and 
not take fish from waters that are contaminated with oil so 
they won't be so exposed.
    Dispersants, compounds of dispersants are different. They 
are water soluble. They don't have the same ability to bio-
concentrate, which is another important part of the analysis 
there, but, again, the primary preventive is to keep fish that 
we are going to put in the marketplace away from--not take fish 
that are affected by the oil in the first place.
    Mr. Pallone. Okay. Thank you. Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman. Dr. Howard and Mr. 
Taylor, is the fish on our store shelves safe? Or the seafood?
    Dr. Howard. Well, I am going to defer to----
    Mr. Shimkus. No. Don't defer because you have in your 
testimony, I think, a statement to that fact.
    Dr. Howard. Yeah. I would say yes.
    Mr. Shimkus. Thank you. Mr. Taylor.
    Mr. Taylor. We are confident about the safety, as I have 
testified, of the seafood that is in the market, Mr. Shimkus.
    Mr. Shimkus. Great. Thank you very much.
    Back to Dr. Howard, I understand that you are conducting 
health hazard evaluation report illnesses, and you have been 
given medical reports for seven previous hospitalized fishermen 
to assist in their evaluation. When do you think this 
evaluation will be complete?
    Dr. Howard. Well, we certainly hope it is going to be 
complete by the beginning of next week, because we want to talk 
about it at the Institute of Medicine meeting in New Orleans.
    Mr. Shimkus. Great, and this was a great discussion between 
the Chairman and the difference between rostering and a 
registry, and I think that is an important line to continue to 
move down. How--first you have a roster and then maybe that 
moves to a registry. How do you ensure that if your--you 
mentioned in your opening statement about people who might have 
asthma or chronic pulmonary activity, they would be more 
susceptible.
    So in this process how do you do things? How do you get an 
appropriate baseline of their health conditions prior to, and 
then how would you do an evaluation of--if there is degradation 
in years based upon normal health decline or an impact on 
something like this?
    Dr. Howard. I think the easiest answer would be comparison 
between the baseline that you have collected and then the 
assessment that you are doing after the exposure.
    Mr. Shimkus. But you are going to have to get health data 
from their healthcare professional previous to this event.
    Dr. Howard. And as Dr. Miller referred to in these previous 
studies what has happened is questionnaires have been filled 
out by individuals who are workers or residents in these 
previous spills, and then you assess what their level of 
symptomatology was before and then you assess it after the 
exposure.
    Mr. Shimkus. So you are getting it from the person who may 
be ill and may be more ill, not a healthcare professional that 
does an evaluation of their health status.
    This is the same type of issue that we deal with in pre-
existing conditions on VA issues, healthcare issues, how do you 
identify this issue was based upon service duty or service 
connected or not.
    Dr. Howard. Certainly self-identified issues in a 
questionnaire have to be corroborated or should be corroborated 
in a better study with actual medical data, either a previous 
medical information that that individual's healthcare provider 
had in a previous record, so you want to look at that, and as 
it was referred to before in the 9/11 situation, we have 
previous annual physicals for firefighters, so we have a 
baseline for them and then we look at them post-exposure.
    Mr. Shimkus. Great. Thank you, and because you went on that 
line, do you currently run a program that provides treatment 
and monitoring of health conditions for first responders to the 
World Trade Center attack?
    Dr. Howard. Yes. Our Department----
    Mr. Shimkus. Thank you, and my time is quick, so I want to 
continue to move.
    Dr. Miller, based upon what I have read weatherized oil has 
lost most of its volatile organic compound. What is happening 
to these?
    Dr. Miller. The volatile organic compounds?
    Mr. Shimkus. Right.
    Dr. Miller. They are evaporating off into the atmosphere.
    Mr. Shimkus. So they are evaporating.
    Dr. Miller. That is correct.
    Mr. Shimkus. A lot of the testimony or the experiences we 
are citing is based upon like the Exxon Valdez or the Spanish 
tanker that broke up on--this is different because it is a mile 
under the top of the ocean, there is a lot of pressure.
    Does pressure have a different characteristic that is 
making this do something different than just the evaluation of 
crude oil itself washing on the shore?
    Dr. Miller. I don't have any specific information on how 
the pressure affects it per se, but we are doing measurements, 
and EPA is doing measurements to actually see what is in the 
actual atmosphere. So part of it is this weathering process of 
the crude and as it comes toward land or it moves around and is 
exposed to sunlight, et cetera, and gets to the atmosphere. 
Then these volatile organics do come off, as well as some other 
compounds tend to break down in the weathering process as well.
    Mr. Shimkus. And my last question and my time is almost up. 
Could the oil and dispersant mix to form a compound that 
creates a unique human health risk that would not exist with 
just the oil or the dispersant alone?
    Dr. Miller. Now, that is an area of uncertainty, and it is 
a potential concern for us, what is the effect of the oil and 
dispersant together. Is it--it could work two ways. One, it 
could lessen the effect, or it could also increase the effect, 
and that is something we need to look at.
    Mr. Shimkus. Thank you, Mr. Chairman.
    Mr. Pallone. Thank you.
    The gentlewoman from California, Ms. Eshoo, has 8 minutes.
    Ms. Eshoo. Thank you, Mr. Chairman. I want to thank our 
witnesses for your expertise, for your testimony, and for the 
work that you are doing.
    Several news reports have stated that BP has told its 
workers that they don't need to use a respirator for the 
cleanup efforts, and the company is only releasing limited test 
results to tamper down public worries.
    So I would like to start out by asking you if in your 
opinion do you believe that BP is doing everything it can to 
protect the health of the cleanup workers?
    Now, in our staff background notes it is noted that there 
are over 13,000 cleanup workers that are employed by BP or its 
contractors. So this is a large group of people. So that is my 
first question.
    And my second having to do with this is have you been given 
access to BP's test results, and if so, could additional 
information from BP help you make more informed decisions?
    I don't know who wants to take this but----
    Dr. Howard. I would be happy to.
    Ms. Eshoo. Okay. Thank you.
    Dr. Howard. Excellent questions. You know, I think that 
from the perspective of the data that we have, you know, 
oftentimes we don't know what we don't have.
    Ms. Eshoo. That is why I am asking.
    Dr. Howard. That is the most serious issue. What I know we 
don't have, and we have asked BP for is an actual list of the 
13,000 workers.
    Ms. Eshoo. And when was that request made?
    Dr. Howard. We made that request several times in the last 
couple weeks.
    Ms. Eshoo. And no response?
    Dr. Howard. We have yet to receive it. So we are anxious to 
receive that, because we would like to correlate it with our 
roster to make sure that we are capturing everybody, and for 
those folks that we do not have, we would like to go out and 
find them so we can put them on the roster.
    Ms. Eshoo. How many are rostered right now?
    Dr. Howard. Right now there are 13,000 rostered. We believe 
that----
    Ms. Eshoo. So you know----
    Dr. Howard [continuing]. It may be 15 or 20,000.
    Ms. Eshoo. Wow. Does anyone else want to comment on that?
    On funding, we know that--well, the President announced 
today that there will be an escrow account that taxpayers will 
not pick up a dime of the cost of this catastrophe, have any of 
you been reimbursed for your work so far? Or is still----
    Dr. Howard. Well, Secretary Sebelius wrote the BP Chairman 
saying that she expected all of our work in support of the 
response to be reimbursed.
    Ms. Eshoo. Well, we all expect that. I just wondered if 
there is any attempt to----
    Dr. Howard. We are keeping track of it.
    Ms. Eshoo [continuing]. Reimburse. Okay.
    Dr. Howard. We are keeping track.
    Ms. Eshoo. Let us know when the check arrives.
    On the dispersants, oil is not obviously the only health 
concern. The manufacturer of Corexit, the dispersant being used 
to clean up the oil, warns against contact with eyes, skin, 
obviously the lungs. This product is somewhat volatile, and it 
is critical for cleanup workers and volunteers to wear personal 
protection equipment when applying the dispersant or working 
near where it has been applied.
    Can you tell us what steps you are taking to ensure that 
the dispersants will not pose a threat for the workers or the 
nearby communities?
    Dr. Howard. From the health and safety perspective, we are 
not fans of dispersants. There was aerial spraying of 
dispersants up until about 2 to 3 weeks ago. That resulted or 
was correlated with the illness that the nine fishermen had 
that we are investigating.
    Now, dispersant is only being applied I am to understand in 
a sub-surface manner. Okay? So aerial spraying really puts it 
in all sorts of exposure zones that we do not think is safe, so 
we are delighted that the application of dispersant is only 
sub-surface.
    Ms. Eshoo. Uh-huh, and when it is sub-surface, there isn't 
anything that reaches the surface, so there isn't any concern 
there?
    Dr. Howard. Well, that is unclear. We really don't know, 
and certainly those workers that are operating at the source 
where the oil and water column are coming up mixed with 
dispersant, those workers may be at risk.
    Ms. Eshoo. Are there any studies on human health effects of 
the dispersants that are being used now?
    Dr. Howard. No. I think as Dr. Miller pointed out, we have 
very scant information in general about oil spills. It has come 
from a few studies of oil tankers that have run aground. We 
have some information about acute irritant effects.
    Ms. Eshoo. Uh-huh.
    Dr. Howard. We have some information about psychological 
stress in the communities. We have practically none about 
chronic effects.
    Ms. Eshoo. Is there any such thing as a safe dispersant?
    Dr. Howard. Well, you are talking to a Health and Safety 
Director, and I am not a fan of putting more hydrocarbons in an 
area that already it has a lot of volatiles in it. I understand 
the reasons why they are being used, but from a health and 
safety perspective, I am not----
    Ms. Eshoo. Well, that is what we are for today, to examine 
the health impacts.
    Does anyone else want to comment on that? Dr. Miller.
    Dr. Miller. Yeah. Just kind of reiterating a little bit 
because the effect of the dispersants and we understand that 
they are, you know, trying to break up the oil and do things 
with it, but in terms of adding additional complexity and 
uncertainty for human health exposures and the facts is more 
complicated, and certainly we need to be monitoring what these 
exposures may be both at the source and as it moves toward 
other human populations to understand exactly what we are 
dealing with.
    Ms. Eshoo. Thank you. Mr. Taylor, in your testimony you 
stated that current science does not suggest that dispersants 
bio-accumulate in seafood. We had some discussion I think from 
previous questions about this, but NOAA is conducting studies 
to look at that issue.
    Do you know when those studies will be completed?
    Mr. Taylor. I don't have a precise timetable. I am told it 
will be a few months. They are doing a series of studies to 
really confirm what our hypothesis is and our understanding 
from the knowledge that we do have that these compounds do not 
bio-accumulate. We want to certainly confirm that, but--so but 
this will be a course of work over the next few months as I 
understand it. I would have to defer to them on the details.
    Ms. Eshoo. Uh-huh. Thank you.
    In terms of the chain of command, who covers for the 
President all of the various health aspects? Is it Secretary 
Sebelius that is part of the team, and you all feed into or 
contribute your daily doings and----
    Dr. Kaplowitz. Well, we----
    Ms. Eshoo. What is happening on the ground?
    Dr. Kaplowitz [continuing]. Certainly all report to 
Secretary Sebelius. She has been very involved. As I said, her 
Chief of Staff has been at all our meetings. We actually----
    Ms. Eshoo. Uh-huh.
    Dr. Kaplowitz [continuing]. Were just meeting with her 
today. The President is in charge, and Admiral Allen is the 
incident commander. So we work through the Incident Commander. 
The Secretary is responsible for the health response.
    Ms. Eshoo. It seems to me that there is--this is a very 
important aspect that is not being covered, and when I asked 
about the chain of command, I really don't hear--I don't think 
I have heard anything on TV that has either put out warnings or 
health reports, what people can access. I mean, maybe I am 
missing it, but I haven't been aware of it, and that is why I 
am, you know, I raised the question.
    You know, this is--I think it was--one of the members said, 
you know, there are so many narratives to this. Without a 
question this is the largest environmental disaster in the 
history of our country, and it is sickening, and I think anyone 
that is saying that song, Drill, Baby, Drill, should have some 
second, third, and tenth thoughts about this.
    So I want to thank you for what you are doing and what you 
will continue to do. I wish that this wasn't--I wish it were 
not the case that you are going to be busier and busier as a 
result of this catastrophe, but I think that the longest-
lasting effects are the ones that you are--the ones that are 
going to be responsible to help take care of.
    So, thank you, and thank you, Mr. Chairman.
    Mr. Pallone. Thank you.
    Next is Mr. Whitfield.
    Mr. Whitfield. Thank you, Mr. Chairman, and thank you all 
for your testimony.
    To follow up a little bit on Ms. Eshoo's line of 
questioning, when we had the CEOs of the major oil companies in 
yesterday, I believe, they talked a lot about the Unified 
Command, and Dr. Kaplowitz, you were talking about Secretary 
Sebelius and Admiral so and so and so and so, but is--what is 
your relationship to the Unified Command and explain to us a 
little bit about the Unified Command.
    Dr. Kaplowitz. Certainly. The Incident Commander is Admiral 
Allen. The two agencies that are jointly responsible for the 
response in my understanding are EPA and the Coast Guard, and 
certainly Secretary Napolitano is very involved since she--
since the Coast Guard is part of the Department of Homeland 
Security.
    We have representation in the National Incident Command 
Center, DHHS.
    Mr. Whitfield. Okay. Can I interrupt you one minute?
    When you say Incident Command, is that the same thing as--
--
    Dr. Kaplowitz. Yes.
    Mr. Whitfield [continuing]. Unified Command?
    Dr. Kaplowitz. Unified Command implies there is more than 
one individual.
    Mr. Whitfield. Yeah.
    Dr. Kaplowitz. So I am----
    Mr. Whitfield. You all refer to it as Incident Command. 
Yesterday they kept talking about Unified Command. It is the 
same thing.
    Dr. Kaplowitz. It is the same structure. Yes.
    Mr. Whitfield. Okay.
    Dr. Kaplowitz. It is, and we have representation in the 
National Incident Command Center or the NICC, so that if any 
questions come up in terms of health issues, we are available. 
We are also available locally in the command sites within 
Louisiana and Alabama. There are State Health Officials that 
are involved in each of the states who also assist their 
governors, for example, in response, in terms of state 
responsibilities.
    Part of the important aspect is ongoing good communication 
among all aspects, but it is Admiral Allen who is responsible 
for the response.
    Mr. Whitfield. But all of you represent agencies that are 
involved with the Incident Command.
    Dr. Kaplowitz. Yes, sir.
    Mr. Whitfield. Okay. Now, as far as these dispersants, Dr. 
Howard, I think you made it rather clear that you think the 
negative impact of dispersants would exceed any benefit by 
using the dispersants. So I am assuming that if you had the 
authority, you would just say no dispersants at all?
    Dr. Howard. No. I don't have that authority.
    Mr. Whitfield. No, but if I you did have that authority.
    Dr. Howard. If I had that authority, I would say we have 
enough hydrocarbons in the exposure----
    Mr. Whitfield. Okay.
    Dr. Howard [continuing]. Zone and----
    Mr. Whitfield. But does EPA--is EPA the agency that makes 
that decision?
    Dr. Howard. I believe so.
    Mr. Whitfield. Okay, and it is my understanding that they 
are still using dispersants, but that EPA made them reduce by 
25 percent what they started off using. Does that make sense?
    Dr. Howard. My understanding is the aerial spray of 
dispersant has ceased about 2 or 3 weeks ago, and now 
dispersant is only being applied sub-surface as the crude oil 
column comes through the water column.
    Mr. Whitfield. Okay. Now, you know, another--when you have 
an event like this, obviously with your responsibilities you 
try to anticipate what may be happening, and since we have very 
scant information from the impact of spills like this, I mean, 
you have indicated that we just have a few studies from tankers 
that have leaked, the Valdez tanker, others, so forth.
    But do we have any information at all? I have been told 
that the biggest spill that ever occurred from an oil well was 
in 1978, in the Gulf, which referred to something like 1XCO2T1, 
and that there were 3.3 million barrels of oil that leaked out 
between June of '78, and March of '79. And I have been told 
that that was the biggest spill in the history of the country.
    Do any of you have any information at all from that spill?
    Dr. Howard. If it was the biggest spill, it wasn't studied 
from the health perspective. If it was studied from the health 
perspective, nobody wrote it up and put it in the scientific 
literature.
    Mr. Whitfield. Okay. Thank you.
    Mr. Shimkus. Would the gentleman yield for----
    Mr. Whitfield. I yield.
    Mr. Shimkus. I just want to follow up quickly on this 
dispersant issue.
    The use of dispersants are designed to push the oil not 
below the surface but above the surface so it will evaporate. 
That is--and the dispersants is not something new that we--the 
issue is the amount and using under and the pressure. This is 
what we use in everyday detergent. That is the same chemicals 
that we are using in dishwashing soap and stuff. That is what 
this dispersant is, and I think the issue for us is the amount, 
is the amount. I think that is what we need to focus on.
    Dr. Howard. There is one other attribute. The dispersant 
may contain a concentration of the surfactant that is found in 
dish--but at a much higher concentration.
    Mr. Pallone. Thank you. Ms. DeGette.
    Ms. DeGette. Thank you. I want to follow up on Mr. 
Whitfield's questions because I--my staff prepared a whole 
bunch of questions for me, which I am going to submit almost 
all of those for you to answer in writing, but what really 
strikes me is how it seems to me we are trying to do public 
health on the fly because we don't have the data of how an oil 
spill like this, you know, we are resisting calling it a spill, 
it is such a catastrophe, will impact public health.
    And what strikes me is in all of your written testimony and 
then your verbal testimony today you are talking about putting 
together the worker monitoring, you are putting together the 
different lists and so on.
    But what I want to know is do we have enough data to tell 
people about the potential health risks and to warn them about 
what they should or shouldn't be doing. I am wondering is there 
anybody can answer that question.
    Yes.
    Dr. Kaplowitz. I will start. First of all, you are 
absolutely right. We don't have enough information. I wouldn't 
say we are doing public health on the fly. I have been in 
public health for many years. We know how to do monitoring, how 
to do surveillance, how to----
    Ms. DeGette. Yeah. That is just great, and I am glad you 
are monitoring and you are surveying, but my question is--let 
me just--Dr.--and I am not meaning to be critical of you, but 
when we were down there last week, we were talking to folks who 
were concerned. They didn't know what to do. We were talking to 
workers who were saying we are being told by OSHA to wear 
breathing masks, and then we are being told by BP that the risk 
of heat exhaustion is such that we shouldn't wear the breathing 
masks, and they didn't know what to do.
    But then we received an email, we received actually a bunch 
of emails from Dr. Gina Solomon's blog, which talked--she is of 
the National Resources Defense Council, and yeah, she 
testified, and about people who don't know what to do, not just 
the workers, although we are hearing concerns from the workers. 
This one gal said, ``I am pregnant and concerned about the 
health of my unborn baby. We live about a half a mile from the 
Mississippi Gulf Coast. I am concerned about the fumes that my 
family is breathing. Do you have anymore info on this or other 
areas to find info on it?
    You said miscarriage is possible for pregnant women. What 
stages would this be? All stages or up to a certain trimester? 
I also have two children under 5 that I am concerned about the 
impact on their development. I am seriously considering leaving 
the area.''
    Do we know what to tell people like this, and are we 
telling that to them?
    Dr. Kaplowitz. First of all, I want to--there is a great 
deal we don't know, and that is exactly why we are having the 
Institute of Medicine do the workshop next week. We are very 
concerned about vulnerable populations, and we have asked 
experts--the Institute of Medicine has brought in experts 
addressing these issues with children, with pregnant women. We 
know they are vulnerable to many exposures.
    Ms. DeGette. So, yeah.
    Dr. Kaplowitz. We don't know in this case--and----
    Ms. DeGette. So--but is the thing, and I think this is a 
great opportunity for us to get more data, but we are hoping on 
the other end that we will put regulations in place and 
supervisions so that we don't have oil spills like this. So we 
will get the data for the next one, but my question is so you 
are bring the Institute of Medicine, you are bringing everybody 
in, that is great, but what are we going to tell this gal? What 
are we going to tell everybody else to do?
    Because it does no good to just collect the data if we 
don't have something to tell them. Like Mr. Taylor saying, you 
know, we know what we are going to do with the fish. We are 
going to tell people not to fish there and not put those fish 
on the market.
    What are we going to tell these people who live along the 
Gulf Coast or the people who are the fishermen or the people 
who are helping remediate it? What are we going to tell them to 
do? And when?
    Dr. Howard. At CDC we have a website that has information 
about food, about smell, about swimming, about water, about 
drinking----
    Ms. DeGette. Okay. So if people smell the oil, what are we 
telling them to do from a public health perspective?
    Dr. Howard. Well, odors--some people are very sensitive to 
odors, and obviously we would like people to, you know, avoid 
if they are in an area in which there are a lot of odors, and 
certainly in workers' populations they could be in those areas.
    Ms. DeGette. Okay, but like if people are smelling bad 
odors, that is because there is some substance in the air, 
probably oil, that smells. Do we have some knowledge or sense 
that that might have some adverse affect and maybe tell them to 
stay indoors or I don't know.
    Dr. Howard. Exactly. That is exactly what I just said.
    Ms. DeGette. Okay.
    Dr. Howard. I am not trying to avoid it. You know, I think 
we should point out that the human olfactory nerve at the top 
of our nose is probably the most sensitive measure of 
hydrocarbons that we could have. A lot of the instruments that 
we use that find undetectable levels that we measure often are 
not as sensitive as our nose.
    So the nose is extremely important. If you smell 
hydrocarbon, try to get away from that area or go inside.
    Ms. DeGette. Okay, and have we told that to people?
    Mr. Pallone. The gentlewoman's time has expired.
    Ms. DeGette. I apologize. I am going to ask you all to 
supplement your answers because I think these are really 
important questions.
    Mr. Pallone. Any written questions you would like to 
submit. Sure.
    All right. We will follow up. I should mention to you that, 
you know, you will obviously receive written questions. We try 
to get them to you within the next 10 days or so.
    Next is the--is our Ranking Member, Mr. Barton.
    Mr. Barton. Thank you, Chairman Pallone, and I apologize if 
I ask a question that has already been asked since I have just 
now gotten here.
    Yesterday when we had the CEOs of the major oil companies, 
I asked them a question, and they weren't very definitive, so I 
am going to ask you folks the same question.
    Is there any capability now to put some of these organisms 
into the oil spill that convert it to non-toxic substances? 
Some of the people have talked about some sort of an organism 
from algae or some of these activities like that.
    Is that advanced enough that we could use that to convert 
the oil into something that didn't have any kind of a long-term 
health liability?
    Dr. Howard. I will just say that, you know, we represent 
the Department of Health and Human Services, so we are experts 
in human health, and so that may be something that may be more 
environmental or other issue.
    Dr. Miller. I believe EPA was working on remediation 
efforts and using biologics to try to help with remediation, so 
probably----
    Mr. Barton. You all aren't aware of any of that activity 
yourself? And I am not saying you should be. This is a health 
hearing, so I am asking a health question.
    Dr. Howard. I think we have read the same reports that you 
have read, but we are sure not experts in that area.
    Mr. Barton. All right. Really that is the only question I 
had, Mr. Chairman, so I am going to yield back. Thank you for 
the--I think this is a good hearing. I would ask the Chairman a 
question. Why do we not have the EPA here? Did they not come, 
or you didn't want them to come or----
    Mr. Pallone. The--you are asking a difficult question----
    Mr. Barton. I am not intending----
    Mr. Pallone [continuing]. Which delves into the realm of 
jurisdiction of the subcommittees.
    Mr. Barton. Okay. Well, that is a fair answer. Thank you.
    Mr. Pallone. Next is the gentlewoman from California, our 
Vice-Chair.
    Mrs. Capps. Thank you, Mr. Chairman, and thank you all for 
your testimony. It is really helpful to hear the important 
steps that the Department is taking to protect the health and 
safety both now and in the future.
    You have all described how your agency is working in 
cooperation with each other. If you sense a certain frustration 
with us, it is because of the sense that there might have been, 
and this is going to drive the series of questions that I hope 
to elicit some responses from you, before I do I just want to 
say at the outset you are doing incredibly and important work 
and necessary work. We need to learn lessons. If there isn't 
enough data, we need to start creating data now, and I 
understand that from Dr. Francis Collins, who spoke--who 
addressed another of our subcommittees or this subcommittee 
yesterday.
    We need to develop a coordinated health system to respond 
to any disaster in the future, whether it is like this one, 
whether it is natural, whether it is manmade, so that we can 
ensure the health and safety of both responders and local 
communities and in any future tragedy. And I know this is not 
something that you haven't thought about as well.
    So I am--I want to get some responses from you about how we 
can--well, let me just phrase it this way. Last week at a 
hearing environmental health experts agreed that enhanced 
federal coordination was needed to best respond to this 
disaster, and with that being said, you work in one of the--
under one Cabinet Secretary. We know that a lot--some of this 
public health response is being done outside of HHS and OSHA 
and NOAA and there are--there is presence at the Gulf now by 
these other agencies as well.
    So in the--I have written--I will just say as a disclaimer, 
written a letter to the President cognizant that BP is not 
capable of dealing with this. They have not demonstrated their 
ability to deal with the public health of their workforce and 
the others that they have employed to help clean up the 
disaster. So I said, take it out from their responsibility, I 
have suggested to the President and create kind of a head 
coordinator or czar if that is a word that you--appeals to you.
    I want to know--that is behind some of the questions I am 
asking you. If you give me some specifics, each of you, 
briefly, of the ways that you and your Department have 
coordinated outside HHS with some other federal agencies and in 
a very short answer if you could.
    Dr. Kaplowitz. I am actually glad to answer that----
    Mrs. Capps. Great.
    Dr. Kaplowitz [continuing]. Because I was on the phone 
today with the head of OSHA. OSHA actually has joined our call, 
even though HHS, they are very important, we have been in 
meetings with EPA. I know my colleagues have coordinated with 
NOAA because of the whole issue of fish. There has been a great 
deal of discussion across departments.
    Mrs. Capps. Okay.
    Dr. Kaplowitz. Another piece that I just want to say 
briefly is the role of the state and localities is----
    Mrs. Capps. Yes.
    Dr. Kaplowitz [continuing]. Very important.
    Mrs. Capps. That was another concern is had. Are you able 
to work down that----
    Dr. Kaplowitz. Absolutely. We have close coordination. I 
was also in communication with state health officials.
    Mrs. Capps. Let me drive it one step further. What is your 
relationship with BP as you are--or your people on the ground 
as you are dealing with them?
    Dr. Kaplowitz. The--I will do my best.
    Mrs. Capps. I mean, yeah.
    Dr. Kaplowitz. Our communication with BP has been through 
Incident Command. It is through the Coast Guard. We want to 
work through the appropriate channels.
    Mrs. Capps. Okay.
    Dr. Kaplowitz. There--I know that there are many 
discussions in terms of the payment issue, but we really try to 
coordinate, including our discussions with BP. So I don't know 
if any of my colleagues----
    Mrs. Capps. Okay.
    Dr. Kaplowitz [continuing]. Want to answer, but we work 
through Incident Command.
    Mrs. Capps. That was a great response. I am going to ask 
one final question, but I would like to have anybody else pick 
up on this if this seems an appropriate topic for you to 
explore.
    Mr. Taylor. Well, just on the food safety aspect of this, 
our collaboration with NOAA and the states has just been 
central. We are working towards really----
    Mrs. Capps. So you already do that.
    Mr. Taylor [continuing]. State and federal waters. It is a 
seamless, you know, coordinated effort on the seafood safety 
side.
    Mrs. Capps. Okay.
    Dr. Miller. I have an additional comment, too. With regard 
to our Worker Education Training Program that we went down and 
try to help develop content----
    Mrs. Capps. Is this with BP?
    Dr. Miller. This is--this was actually--BP is the one who 
implements it, but it was developed with OSHA using our Coast 
Guard and Incident Command in general as a throughput in 
developing this so EPA could start to develop this and use it 
for the workers.
    Mrs. Capps. Can you guarantee that they are actually doing 
it? Do you have a way of doing that as well?
    Dr. Miller. We don't have that from our particular--but 
OSHA who we work with and NIOSH----
    Mrs. Capps. They would.
    Dr. Miller [continuing]. Also, they would have additional 
oversight and opportunity to evaluate the actual implementation 
of that.
    We also have an interagency work group now that is working 
on the surveillance issues and some of the health longitude and 
short-term health issues.
    Mrs. Capps. Let me see if I can get an answer--I am being 
rude. I am sorry. We tend to sometimes do that, at least I 
get--I would like to--and then my time is out. I would love to 
have one other response if I could, and maybe you don't feel 
comfortable saying this.
    Do you see a need for a little bit more coordination than 
you are able to get because of the urgency on the ground there? 
Would you like--would that be an idea that should be pursued, 
that I should keep bugging people about, having a Chief 
Coordinator, if you will, or someone to organize?
    I--we--I find it hard to know who to turn to.
    Dr. Kaplowitz. Actually, I used my--I came from the state 
and the local perspective. I have only been in my position 3 
months. I think that things are being very well coordinated at 
all levels up and down and across government and using Incident 
Command is really the best approach to take----
    Mrs. Capps. Well, that--I suspected that----
    Dr. Kaplowitz [continuing]. Gives us the--there has been an 
incredible amount of communication cross department.
    Mrs. Capps. And so would that--so Admiral Allen is the 
Incident Commander. Right? And so you believe that is the--and 
you all feel--can I get a real quick assessment from each of 
you? Is that working? Do you feel like having that one point 
person should be the way it continues?
    Just kind of answer real quick.
    Mr. Taylor. When the system is working well in terms of----
    Mrs. Capps. You think--you feel it is working well?
    Mr. Taylor. From an FDA standpoint, food safety standpoint 
I think the system is working very well.
    Dr. Miller. From NIEHS we coordinate through the Department 
and back up. So we haven't seen a problem with respect to that.
    Mrs. Capps. Okay.
    Dr. Howard. I would say one of the issues that we would 
want our committee to look at next week is whether or not we 
have sufficient coordination.
    Mrs. Capps. What committee is that?
    Dr. Howard. Our Institute of Medicine Committee----
    Mrs. Capps. Oh, yes.
    Dr. Howard [continuing]. Meeting in New Orleans.
    Mrs. Capps. So you are going to bring this----
    Dr. Howard. One of the questions that we want them--are we 
being--are we coordinated enough.
    Mrs. Capps. Well, I will be interested--will that be--okay. 
I will look for that answer then from then. Thank you very 
much.
    Dr. Miller. And our issues are still getting at data and 
things like that that help NIOSH and us, you know, perform the 
research that we need, so that needs to get translated back to 
BP.
    Mrs. Capps. Thank you.
    Dr. Kaplowitz. I can tell you one panel includes federal, 
state, local. It is going to be a whole discussion of that 
aspect of coordination.
    Mrs. Capps. Great. Thank you very much.
    Mr. Pallone. Ms. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman, and thank--I 
would like to thank all of the witnesses for the work that you 
are doing. It is really appalling the lack of information on 
health impacts that we have not been able to accumulate over 
the years, but--and I hope we never have another spill like 
this, but I hope that the work that is being done now, should 
it happen, we would be better prepared.
    A question following up on Ms. Capps' question. Within the 
Health Department who is in charge? Within the Department of 
Health and Human Services, who is the----
    Dr. Kaplowitz. Within the Department of Health and Human 
Services Secretary Sebelius is----
    Mrs. Christensen. She is not----
    Dr. Kaplowitz. I will say my boss is the Assistant 
Secretary for Preparedness and Response and is the Chief 
Advisor to the Secretary on emergency response issues and that 
is Dr.----
    Mrs. Christensen. And coordinates the rest of the team?
    Dr. Kaplowitz. Exactly, and that is why I am here. We do 
take this very, very seriously. We are in constant 
communication with the Secretary's office, and you know, she is 
in charge.
    Mrs. Christensen. Okay, but even within the different 
agencies, with so many agencies operating, it is really--we 
still need----
    Dr. Kaplowitz. We have twice-a-week calls.
    Mrs. Christensen. Okay.
    Dr. Kaplowitz. They are chaired by Dr. Lorrey, Dr. Lorrey 
was on leave, I chaired them, we have pulled together all 
components of HHS, including CMS because of whole issues about 
healthcare payment issues, everything you can imagine. Agency 
for Children and Families. So everybody, every component of HHS 
has been either in the room or on that call, and it has worked 
very well in terms of coordinating our efforts.
    Mrs. Christensen. Another question I guess would go to--I 
am not sure who it would go to. It might go to Dr. Howard from 
Centers for Disease Control.
    You--in response to another question about the information 
that is being shared with the population about what to look for 
and how to respond, you talked about it being on the website. 
The population, a large part of the population that we are 
dealing with in the Gulf Region don't have access to a website.
    So what other avenues are you using to reach some of the 
harder-to-reach people?
    Dr. Howard. We are using every avenue that we can get our 
hands on, including the local and the State Health Departments.
    Mrs. Christensen. What about radio?
    Dr. Howard. Radio, TV, we are twittering, we are using all 
social media that we can get our hands on.
    Mrs. Christensen. And for the public meeting, the IOM 
meeting, again, are all media being used to reach out? If the 
public is invited, we want the public to know about it.
    Dr. Kaplowitz. That is an excellent point. We are well 
aware this is a very diverse population, very culturally 
diverse, and that is one charge we, additional charge we have 
given to the IOM. We want to have addressed at this meeting the 
best way to reach out and to communicate with the range of 
populations, and we hope for some very good feedback from them.
    Mrs. Christensen. Okay. A recent study apparently of beach 
cleanup workers and volunteers after an oil spill in Spain 
reported increase in DNA damage, and I believe it has been 
reported in some of the other spill workers from some of the 
other cleanup of oil spills.
    What--do we have any idea what the effects of those changes 
to DNA or to genetic make up might be, and are we planning to 
follow up on what we have seen with the workers and volunteers 
in this spill?
    Dr. Miller. We have actually as part of our interagency 
group as well have connected with the research group from Spain 
and are evaluating not only their materials but we will be 
working with them closely to look at some of their results as 
well that may help inform us.
    And this will go also before the IOM and the direction in 
which we develop research. So how does this help us think this 
through, what tests do we need to do, and what are our concerns 
based on those findings?
    Mrs. Christensen. Was any--I don't remember that there was 
any finding from the Exxon Valdez workers and volunteers. Any 
thought about going back and checking them? Or is----
    Dr. Howard. There has been some follow up of limited 
populations but not in the scope that there should be.
    Mrs. Christensen. Is this damage to DNA considered serious, 
or is it something that is felt can repair itself?
    Dr. Miller. I am not totally familiar with all the tests, 
but the tests certainly indicate that there may be a problem 
that is happening based on the exposure. So what they were 
looking at is the groups that had higher exposure and lower 
exposure and did these changes occur.
    So the ultimate ramifications in terms of public health or 
disease is not known at this point but certainly it is a cause 
for concern, and we will look more closely at that particular 
issue.
    Mr. Pallone. The gentlewoman----
    Mrs. Christensen. Thank you.
    Mr. Pallone. Thank you. Just so you know, we are expecting 
to have votes, so I am trying to get everybody in before.
    The next member is Ms. Castor.
    Ms. Castor. Thank you, Mr. Chairman.
    Mr. Taylor, the FDA's recent announcement said the public 
should not be concerned about the safety of seafood in stores 
at this time, but there are large areas of the Gulf of Mexico 
closed down. You know, here is the most recent map, and it is 
really having a terrible impact on our, all of our commercial 
fishermen and our charters. So many small businesses.
    But I think it is important to also emphasize there are 
large areas still open for fishing, you know. You can come 
right off of Tampa Bay and get the reef fish, grouper and 
snapper, fabulous. So you all are monitoring. You are working 
with NOAA on these closures, and I wonder if you would go 
through your jurisdiction and then explain some of the sampling 
that is going on as well. I know that is primarily NOAA's 
jurisdiction, but if you would explain that, and then tell us 
what--how you are working with states to ensure that the areas 
are reopened on a timely----
    Mr. Taylor. Sure.
    Ms. Castor [continuing]. Basis.
    Mr. Taylor. Sure. There is a shared jurisdiction over all 
of this between FDA, NOAA, and the states. With respect to 
closing waters, federal waters, that is from 3 miles offshore 
and out, that is NOAA's jurisdiction or federal waters. The 
states have the authority to close the state waters, and of 
course, NOAA and the states----
    Ms. Castor. Three miles?
    Mr. Taylor. Three miles out to the--yes.
    Ms. Castor. Uh-huh.
    Mr. Taylor. NOAA and the states work very closely on that, 
and we are in consultation as well with NOAA and the states 
about the closure of water, so we are confident collectively 
that these are ahead of the spill, they are protective, and 
they are ensuring the seafood that is then harvested and 
brought to market, you know, has been taken outside of these 
closed areas, and we have got that fundamental preventive 
measure in place to give us confidence.
    But, then, yes, we are doing surveillance sampling of fish 
that is coming to market. NOAA and FDA are doing that sampling, 
again, just to verify, you know, that that protective measure 
is working.
    And so it is very much a shared enterprise.
    Ms. Castor. How does that take place?
    Mr. Taylor. Well, it is various ways in which the sampling 
is done. NOAA is collecting samples out, you know, in the water 
in the vicinity of the spill, and just, again, being sure that 
their understanding of the protectiveness of the closure is, 
you know, verified. We are collecting sample at retail--I am 
sorry, at processing establishments I should say, where the 
fish has been brought to be processed to go to retail, and, so, 
again, that is where we are looking at the crabs and shrimp and 
shellfish.
    So, again, it is a collective, coordinated effort to 
provide a verification that the system is working.
    Ms. Castor. And then on the reopening, I want to make sure 
I understand the criteria for reopening. You mentioned that you 
and other agencies have looked at baseline levels of oil 
contaminants in seafood from the Gulf. While this spill is 
obviously very severe, there has been a lot of drilling in the 
past and spills of petroleum product.
    Are the baseline levels of petroleum-related contaminants 
in seafood in the Gulf of concern to the FDA?
    Mr. Taylor. The baseline levels are not of concern, and, in 
fact, they are well below what would be our level of concern 
from a public health or safety standpoint. And so we are 
developing a protocol for reopening that would look at the 
levels that are of concern and be sure that any residues are 
below those levels of concern.
    So, you know, we expect over time levels will go back to 
baseline, but baseline is way below----
    Ms. Castor. And if it turns out that the baseline levels 
are well within the safe range, will you wait until the levels 
return to the baseline before NOAA reopens federal water?
    Mr. Taylor. No. We don't think public health requires 
waiting until we go all the way back to baseline. Again, based 
on our safety evaluation and our risk assessment, we can set 
levels that, you know, where the level of concern actually is 
and then be sure that any levels are below that.
    So we don't need to wait until we go all the way to 
baseline.
    Ms. Castor. Okay. We had a researcher at the University of 
South Florida where they have a great consortium of all the 
public and private universities in Florida, and they have just 
gotten some grant money from BP, thankfully, because they have 
been out on the water with their vessels, and the taxpayers, 
who really should not be paying for their research, and they 
are one of the partners for NOAA, and one of the researchers 
had difficulty getting a water sample, an oil sample from BP.
    Have you all run into any of that, any resistance from BP 
getting oil samples, water samples, or air samples?
    Mr. Taylor. I am not aware that from FDA's vantage point. I 
would check, though, and be sure, but I haven't heard those 
reports as far as FDA is concerned.
    Ms. Castor. Okay.
    Dr. Howard. We wanted to acquire some dispersant to study 
it. The manufacturer is under contract to BP to sell all of 
their product to BP. So we went to BP to see whether or not 
they would allow us to purchase some, and we received that 
assurance from BP through its manufacturer that we would be 
able to look at getting some so we could study.
    Ms. Castor. What is their timeframe?
    Dr. Howard. The timeframe for getting that permission?
    Ms. Castor. Or getting the actual sample.
    Dr. Howard. Well, we are still waiting for it, but we are 
hopeful.
    Mr. Pallone. The gentlewoman's time has expired. I am just 
trying to move along because I know we are going to have votes 
soon.
    Gentleman from Iowa, Mr. Braley.
    Mr. Braley. Thank you, Mr. Chairman. I would like to start 
with some brief comments about terminology. Some of you used 
the word, spill, in your presentations. This is a spill.
    BP from the beginning has misled us about the volume of 
spill coming from the Gulf, and I want to talk about that 
because it relates to the whole problem of planning from a 
public health standpoint.
    The day after this release occurred we were told that no 
more than 1,000 barrels per day were coming out of that well 
head. On April 27 an outside group looking at the video monitor 
upgraded that estimate to 5,000 barrels per day, which BP 
contested. Then last week or the end of May that estimate was 
raised upward from 12,000 to 19,000 barrels per day and then 
just this week we have been told that the release after the 
intervention occurred can be as great as 60,000 barrels per 
day.
    That is 2.5 million gallons per day, 17.6 million gallons 
per week, 75 million gallons per month, and over the 57 days of 
this disaster, which is what it really is, it is 144 million 
gallons, and my friend, Mr. Whitfield, talked about this 
1XCO2T1 release in Mexico, it wasn't in the United States or 
the Continental Shelf, which was termed the largest accidental 
disaster in history of 100 to 140 million gallons. We will 
exceed or have exceeded that flow rate.
    So when we use the word, spill, talking about that massive 
amount of release, it does a great disservice to the people 
whose lives have been impacted by this disaster.
    And Dr. Howard, you mentioned that you were not a big fan 
of dispersants, and having spoken to people on the ground who 
were involved in those decisions, I mean, one of the problems 
we have is we are talking about balancing environmental and 
public health interests. People who made that decision did so 
reluctantly, talking to them, because managing this immense 
quantity of oil from an environmental and ecologic standpoint 
is a totally separate challenge than dealing with the public 
health implications.
    Isn't that true?
    Dr. Howard. Yes.
    Mr. Braley. And, you know, so you talk to the people in the 
Gulf, and they talk about this enormous water column at the 
site of the release and the trillions of gallons of water that 
are being used where these chemical dispersants are dissipating 
in some way these large plumes and slicks of oil, but the 
reality is you are making tough decisions about tradeoffs 
between how you clean this mess up and how it impacts the long-
term commercial fishing industry and vacation industry, and 
then the implications for public health from the workers who 
are exposed to it.
    So I would like all of you, if you would, to comment about 
how you are struggling from a public health standpoint with 
dealing with decisions that have to be made, that could be not 
in the best interest of public health, but have very 
significant implications for environment and ecology.
    So----
    Dr. Howard. I would say that what I would like is for when 
those decisions are discussed and made that a consideration at 
that time be placed on that same table for public health, both 
from the residents' standpoint and from the workers' 
standpoint.
    So all I would ask is as those very tough decisions are 
being made, talk about, factor in the public health issue. That 
is all I would ask.
    Mr. Braley. Dr. Miller.
    Dr. Miller. And additionally, in terms of the toxicology 
that come with this, so if we don't know something that we put 
into place, structure to get the information we need so we can 
make better decisions, we can understand that effects of what 
our actions are.
    Mr. Braley. Dr. Kaplowitz.
    Dr. Kaplowitz. Just to add to that, public health is at a 
disadvantage precisely because we don't know. If we had the 
data, it would be easier to present the risks, and since we 
don't know what they are, it makes it very, very difficult to 
counter some of the decisions that are being made.
    Mr. Braley. Mr. Taylor.
    Mr. Taylor. I think our approach to food safety very much 
takes account of both sides of the coin. I think it is our 
being protective and preventive of seafood being taken from 
contaminated waters is what permits us to say that the product 
on the market is safe.
    And so protecting the fisheries that are safe from the 
public confidence concern that would arise if we didn't have a 
good protective system in place where the seafood is 
potentially contaminated. So I think inherently our food safety 
approach is taking account of both sides of that coin.
    Mr. Braley. Well, I think you have done a nice job of 
laying out the toxic components of sweet crude and some of the 
dispersants and how they interact, but when you don't know the 
total volume of this release and how that combined effect can 
contribute to these public health considerations, I think we 
are all at a disadvantage, and I think we need to get to the 
bottom of that as well, and I yield back my time.
    Mr. Pallone. Thank you, Mr. Braley.
    The Chairman of the Energy and Environment Subcommittee has 
joined us, and I would yield to him. Mr. Markey.
    Mr. Markey. I thank the gentleman very much.
    Dr. Howard, in your written testimony you state that there 
may not be health risk just because residents and workers smell 
toxic chemicals because these chemicals can be smelled at 
levels, ``well below those that would make most people sick.''
    Last week in a hearing here to examine environmental fate 
and human exposure to oil and dispersants, at that hearing one 
of the witnesses said that she believed that it was 
inappropriate to not warn people that they could be made sick. 
This witness named several chemicals found in oil, including 
Benzene and Toluene, which are hazardous to human health at 
levels far below the odor threshold.
    Dr. Howard, would you agree that some chemicals present in 
crude oil may be hazardous to health at levels below what--
where they can be smelled and that assuring people that they 
are safe when they smell these chemicals may not be 
appropriate?
    Dr. Howard. Yes. I would agree.
    Mr. Markey. Is it possible that these fumes can cause long-
term health impacts long beyond when the symptoms of eye, nose, 
throat, and skin irritation pass?
    Dr. Howard. It certainly is possible. We don't have any 
data to refute that.
    Mr. Markey. Do you think if people smell these fumes, 
should they go inside to reduce their exposure?
    Dr. Howard. Yes.
    Mr. Markey. If these fumes come into the home, should 
people close their windows to reduce their exposure?
    Dr. Howard. Yes.
    Mr. Markey. Dr. Miller, do you believe that there should be 
a centralized federal agency responsible for compiling all the 
health information and surveillance data related to the BP Gulf 
oil disaster?
    Dr. Miller. It needs to be done. I don't know what the best 
agency to do it is in terms of that, but it needs to be done in 
a reasonable component.
    Mr. Markey. Which agency in your opinion should hold that 
responsibility?
    Dr. Miller. Well, through HHS probably a shared collective 
response with regard to that.
    Mr. Markey. How would you then share that information with 
university and other independent, non-governmental scientists?
    Dr. Miller. If it is developed accordingly, they should be 
putting stakeholders in the actual development up front and 
participate in the way it is implemented.
    Mr. Markey. Okay. The CDC website says that smelling 
chemicals isn't a risk. Should that be rephrased on the CDC 
website?
    Dr. Howard. I think for most people, but there are people 
who are very sensitive to odors, and I think that would be 
something that we are looking at.
    Mr. Markey. Is that phrase--is it phrased that way on----
    Dr. Howard. No. That is an area that we received a number 
of surveillance reports, and we are looking at that phraseology 
right now.
    Mr. Markey. Okay. So you believe that perhaps the warning 
should be more clear for those that might be vulnerable?
    Dr. Howard. Exactly. There are people who are very 
sensitive to hydrocarbon odors.
    Mr. Markey. And how long would it take in order to ensure 
that we have a warning that reflects the level of risk for 
people who could be vulnerable?
    Dr. Howard. Well, soon, very soon.
    Mr. Markey. Very soon.
    Dr. Howard. We hope to be able to finish that this week and 
to have the language on the website.
    Mr. Markey. So by Friday?
    Dr. Howard. Hopefully.
    Mr. Markey. We can--we would hope that you would be able to 
finish it by then.
    And one final question. Is BP sharing all the information 
that you want with regard to the health effects?
    Dr. Howard. You know, I had answered that question earlier. 
The answer for us in NIOSH is no. We have asked for a list of 
workers that they have hired specifically by name so we could 
correlate with our roster. We have yet to receive that list 
from them.
    Mr. Markey. Dr. Miller.
    Dr. Miller. We have not specifically asked BP for anything 
at this point, but we will be looking more toward that as we 
develop the research.
    Mr. Markey. Okay, but NIOSH, you have been asking, and they 
have not been fully cooperative?
    Dr. Howard. Yes, sir.
    Mr. Markey. Is there any reason why BP would withhold 
health-related information since it would make it possible to 
put together the best response to protect the health of people 
in the Gulf?
    Dr. Miller. I wouldn't speculate on that. I would add one 
thing just for our Worker Education Training Program. They have 
been very compliant in working with us with respect to trying 
to provide information to workers.
    Mr. Markey. On that program. But I am more concerned about 
what I am hearing from Dr. Howard. I would say that BP 
continues to be more interested in its own liability than it is 
in the livability for the people in the Gulf. They should make 
the health of these residents paramount. They are responsible 
for the harm that is going to be done. They should ensure that 
the information is in the hands of public health officials so 
that they can do their job and protect them, and they should do 
it immediately.
    Thank you all for your testimony. Thank you, Mr. Chairman.
    Mr. Pallone. Thank you, and that concludes all questioning 
just in time for votes. So I just want to remind members that 
they can submit additional questions for the record, some have 
already suggested that they would, and would like to get those 
to the clerk within the next 10 days. And then we will send 
them to your various offices for the panel.
    And, again, I want to thank you for being here today. 
Obviously this was very important, very informative. I--we may 
have to do additional, you know, hearings like this. We will 
see as we progress, but I thought this was very enlightening. 
Thank you.
    And without objection, this meeting of the subcommittee is 
adjourned.
    [Whereupon, at 4:15 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHIC] [TIFF OMITTED] 77912A.049
    
    [GRAPHIC] [TIFF OMITTED] 77912A.050
    
    [GRAPHIC] [TIFF OMITTED] 77912A.051
    
    [GRAPHIC] [TIFF OMITTED] 77912A.052
    
    [GRAPHIC] [TIFF OMITTED] 77912A.053
    
    [GRAPHIC] [TIFF OMITTED] 77912A.054
    
    [GRAPHIC] [TIFF OMITTED] 77912A.055
    
    [GRAPHIC] [TIFF OMITTED] 77912A.056
    
    [GRAPHIC] [TIFF OMITTED] 77912A.057
    
    [GRAPHIC] [TIFF OMITTED] 77912A.058
    
    [GRAPHIC] [TIFF OMITTED] 77912A.059
    
    [GRAPHIC] [TIFF OMITTED] 77912A.060
    
    [GRAPHIC] [TIFF OMITTED] 77912A.061
    
    [GRAPHIC] [TIFF OMITTED] 77912A.062
    
    [GRAPHIC] [TIFF OMITTED] 77912A.063
    
    [GRAPHIC] [TIFF OMITTED] 77912A.064
    
    [GRAPHIC] [TIFF OMITTED] 77912A.065
    
    [GRAPHIC] [TIFF OMITTED] 77912A.066
    
    [GRAPHIC] [TIFF OMITTED] 77912A.067
    
    [GRAPHIC] [TIFF OMITTED] 77912A.068
    
    [GRAPHIC] [TIFF OMITTED] 77912A.069
    
    [GRAPHIC] [TIFF OMITTED] 77912A.070
    
    [GRAPHIC] [TIFF OMITTED] 77912A.071
    
    [GRAPHIC] [TIFF OMITTED] 77912A.072
    
    [GRAPHIC] [TIFF OMITTED] 77912A.073
    
    [GRAPHIC] [TIFF OMITTED] 77912A.074
    
    [GRAPHIC] [TIFF OMITTED] 77912A.075
    
    [GRAPHIC] [TIFF OMITTED] 77912A.076
    
    [GRAPHIC] [TIFF OMITTED] 77912A.077
    
    [GRAPHIC] [TIFF OMITTED] 77912A.078
    
    [GRAPHIC] [TIFF OMITTED] 77912A.079
    
    [GRAPHIC] [TIFF OMITTED] 77912A.080
    
    [GRAPHIC] [TIFF OMITTED] 77912A.081
    
    [GRAPHIC] [TIFF OMITTED] 77912A.082
    
    [GRAPHIC] [TIFF OMITTED] 77912A.083
    

</pre></body></html>
